<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]


 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2012 

                              ----------                              


                         TUESDAY, MAY 10, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:01 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mary Landrieu (chairman) 
presiding.
    Present: Senators Landrieu, Lautenberg, Coats, and Cochran.

                    DEPARTMENT OF HOMELAND SECURITY

                            U.S. Coast Guard

STATEMENT OF ADMIRAL ROBERT J. PAPP, JR., COMMANDANT


             opening statement of senator mary l. landrieu


    Senator Landrieu. Good morning. I'd like to call our 
subcommittee to order.
    And the purpose of this meeting is to review the Coast 
Guard budget and priorities for the coming year.
    And I welcome Admiral Robert Papp to discuss these issues. 
And, thank you, Admiral, for being with us today. I'm joined by 
my ranking member, Senator Coats, and the vice chair of the 
subcommittee, Senator Lautenberg. So, I'm really pleased to 
welcome you this morning.
    This is to review the budget request and examine the 
agency's operations and recapitalization requirements.
    This is your first appearance before this subcommittee, so, 
welcome, and congratulations on your new role as Commandant of 
the Coast Guard.
    The importance of the Coast Guard to our Nation cannot be 
overstated. It's one of the five branches of the military and 
is responsible for the safety and security of our maritime 
interest in U.S. ports, waterways, and on the high seas.
    We will never forget--and, particularly, this Senator--the 
heroic efforts of the Coast Guard men and women who came to our 
aid after Hurricanes Katrina and Rita along the gulf coast and 
rescued 33,000 citizens during the largest search and rescue 
mission in the Coast Guard's history. Last year the Coast Guard 
was first on the scene in response to the earthquake in Haiti, 
coordinated the response and cleanup efforts following the 
explosion of the Deepwater Horizon rig and subsequent oil 
spill, which was also the largest of its kind in the history of 
our country. The Coast Guard, gentlemen that I serve with, has 
been extremely busy in missions along the southern part of our 
State and all over the United States.
    However, the Coast Guard's ability to fulfill its mission 
requirements has reached a critical juncture due to 
deteriorating assets, aging infrastructure, and workforce gaps. 
The former Commandant, Admiral Thad Allen, who I had a 
tremendous amount of respect for, said, ``With every passing 
year, our operating capacity erodes, putting our people at risk 
and endangering our ability to execute our statutory 
responsibilities.''
    Admiral Papp has been equally candid about the state of the 
Coast Guard and recently said, ``We may need to reduce the 
number and range of our capabilities we've added since 9/11 
until properly resourced.''
    Frankly, the Coast Guard has not been properly resourced in 
its budget requests to the Congress. This has been a failure of 
both the current and previous administrations. Over the past 5 
years, this subcommittee, with my support, has increased the 
Coast Guard budget by $160 million annually above the White 
House request levels to fill operation recapitalization 
shortfalls.
    However, continuing such increases may not be sustainable 
in today's constrained fiscal environments, of which we're all 
aware, and this subcommittee intends to do what it can to 
eliminate the waste and the fat, and focus on our central 
missions. However, we've been calling on the Coast Guard to do 
more and more things with less and less. At some point, which 
you're going to see in this hearing, things start to 
deteriorate.
    With that in mind, today we focus on the Coast Guard's 2012 
request, which is only a 1-percent increase above last year. 
Specifically, we'll be examining whether the Coast Guard is 
properly resourced to execute its many missions.
    Before turning to Senator Coats, I want to take this 
opportunity to stress my concern about the status of the FEMA 
Disaster Relief Fund (DRF). For several months I've been 
pressing the White House on the need to submit to the Congress 
an emergency funding request for the DRF. There is currently a 
$3 billion shortfall for 2012. If the President does not seek 
emergency funding, it is likely that this fund will be 
exhausted in spring 2012, stopping disaster recovery efforts in 
49 States, including the States impacted by the devastating and 
historic recent tornadoes, primarily in the South, but in other 
States as well, particularly in the State of Alabama that was 
so hard-hit, and by States currently facing historic flooding 
along the Mississippi River, which is truly the breadth and the 
width of our country.
    It makes no sense to cut funding for agencies that prepare 
for and respond to future disasters to pay for the cost of past 
disasters. Those are clearly emergencies. They are over the 
allotted base amount that we allocate to the best of our 
judgment on a 5-year average. We cannot predict disasters. 
There is no crystal ball sitting on this desk. I cannot predict 
where future storms will be. I could not predict the recent 
tornadoes. I could not predict the Mississippi River flooding. 
All I can do is budget a reasonable amount of money based on a 
5-year average and then expect that the President will send an 
emergency request when it truly is needed. I believe the 
evidence is in to support that action.
    Following Senator Coats' remarks, we'll go to Vice Chairman 
Lautenberg, and then other members will be recognized as they 
come in.
    I thank our ranking member for his support and his 
cooperation. He too is a great supporter of the Coast Guard, 
and I appreciate that.
    Senator Coats.


                   statement of senator daniel coats


    Senator Coats. Madam Chair, thank you very much.
    Admiral, thank you--first, for your call a few weeks ago, 
and the opportunity to work with you.
    I did have the privilege of serving for 10 years on the 
Senate Armed Services Committee, and I always viewed the Coast 
Guard as the fifth service. But it's as essential as the first 
four. And I think since 9/11 you've had to take on even greater 
responsibilities. So, I commend the Coast Guard for its 
participation in our Nation's defense, and wish you the best in 
your leadership.
    I'm sure that you breathed at least a sharp sigh of relief 
when the Congress finally gave you some direction on what your 
funding would be for the remainder of fiscal year 2011. 
Unfortunately, we may be in a situation for the 2012 budget 
that again leaves some uncertainty in terms of just exactly 
what the funding will be. I'm sorry for that, and I know it 
makes it difficult in terms of planning and preparing your 
goals, and meeting those goals.
    In any event, you're pretty much faced with a no-growth 
budget for this next year. I'm looking forward to your 
testimony in terms of outlining how you're going to have to 
manage your priorities as a result of that. And if you don't 
mind, I'll give you a little spiel that I've said several 
times. I'm sure the chair is tired of hearing me say this, but 
we face the kind of debt and deficit situation today that I 
think none of us had anticipated, and it's going to require 
some pretty serious action in terms of how we deal with it.
    My concern has been, and continues to be, that we are 
limiting our focus on just a small part of the overall budget, 
and therefore, the discretionary--including defense--spending 
is subject to taking a disproportionate share of the burden of 
addressing this debt and deficit problem. So, I've been trying 
to encourage a so-called ``Coalition of the Discretionary'' 
that will encourage Members of the Congress and the executive 
branch to broaden the look in dealing with the real drivers of 
our deficit and debt, and that's some of the mandatory 
spending.
    I know this is outside your jurisdiction. I'm just raising 
the point here that you are the recipient of, perhaps, a 
disproportionate share of the burden, and lower funding than 
you need to accomplish some of your priorities, because we have 
not yet come to a consensus in terms of moving forward on 
mandatory spending, so that the focus has continued to be on a 
slice of the budget of which you are a part.
    So, I just say that for the record. I'm not asking you to 
necessarily do anything about that. But I do look forward to 
your testimony.
    Madam Chair, thank you for your leadership with this. You 
certainly have much more at stake relative to the Coast Guard 
than the State of Indiana does. But I do want to state for the 
record that we do have a Coast Guard station in Michigan City--
small, but necessary. And we're glad to be a State that 
participates just a little bit in the efforts of the Coast 
Guard. Thank you.
    Senator Landrieu. Thank you very much, Senator Coats.
    Senator Lautenberg.


                statement of senator frank r. lautenberg


    Senator Lautenberg. Thank you, Madam Chair.
    And thank you, Admiral Papp, and all of your colleagues for 
the wonderful service the Coast Guard gives the country. I 
think it's well-known that in all of my years in the United 
States Senate, the Coast Guard has been a principal focus of my 
views about what we ought to do to take care of our security--
so many other responsibilities that the Coast Guard has--I 
don't know whether it goes from fish to fowl. But I start out 
with safeguarding our supplies, fish, protecting the quality of 
the water, being there for security duty.
    It's just an amazing thing, Madam Chair. The Coast Guard is 
one of those organizations that, the more good they do, the 
less we give them. And it's the kind of contrast that gives me 
some cause of concern.
    We are all so proud of what our people did when they went 
to get Osama bin Laden, and proud of the President's decision 
and courage to take that kind of a chance. Because obviously, 
great personal feeling goes along with putting people in harm's 
way. But there we are. And we learned one thing: When we put 
the resources into a mission, we can succeed. And this is a 
mission--the attack on Osama bin Laden was in the works for 
years.
    So when I look at the things that we're asking the Coast 
Guard to do, and see that prior to 9/11 the Coast Guard 
invested only 2 percent of its operating budget in security 
activities--immediately following 9/11, it shifted its 
resources dramatically, spending approximately 50 percent of 
its operating budget on a security mission--there are lots of 
positive things in the budget for the Coast Guard, including 
the funding to modernize the aging fleet and bolster its 
ability to respond to disasters. I'm also pleased that the 
budget includes funding to rebuild the dilapidated pier port at 
the Coast Guard Training Center in Cape May, New Jersey. The 
facility supports the patrol boats that protect our coastline, 
and trains the Coast Guard recruits. I hope we can provide the 
resources the training center desperately needs.


                           prepared statement


    And Madam Chair, I ask unanimous consent that the 
aforementioned statement would go in the record.
    Senator Landrieu. Without objection.
    [The prepared statement follows:]
           Prepared Statement of Senator Frank R. Lautenberg
    Madame Chairman, Osama bin Laden is dead--but the fight against 
terrorists who want to harm us is far from over. We must remain 
vigilant and keep our defenses strong to prevent another terrorist 
attack in our country. The Coast Guard is vital to fulfilling that 
mission of protecting our shores.
    This is particularly important in my home State of New Jersey, 
which is a tempting target for our enemies. We are home to the most at-
risk area in the country for a terrorist attack: A stretch that 
includes Newark Liberty International Airport, the Port of Newark, 
chemical plants, refineries, railways, and more. Protecting this region 
also protects the economy: The Port of New York and New Jersey--the 
largest on the east coast--handled more than $140 billion in cargo last 
year.
    There are a lot of positives in the President's proposed budget for 
the Coast Guard, including funding to modernize its aging fleet and 
bolster its ability to respond to disasters. I am also pleased that the 
budget includes funding to rebuild the dilapidated Pier 4 at the Coast 
Guard's training center in Cape May, New Jersey. This facility supports 
the patrol boats that protect our coastline and trains the Coast 
Guard's recruits. I hope we can provide the resources the training 
center deserves.
    Despite the funding for these projects, the administration's 
overall budget plan doesn't go far enough. The Coast Guard is 
consistently put at the back of the line for resources--and is 
consistently forced to do more with less. The men and women of the 
Coast Guard are America's eyes and ears on the seas, and we remain safe 
because of them.
    So, I look forward to working with this subcommittee to make sure 
the Coast Guard has the funding it needs to keep up the great job that 
it does each day.

    Senator Lautenberg. And I would just say that my respect 
for the Coast Guard continues to evolve. I look from the window 
of my apartment in New Jersey, and I see a small patrol boat 
going around to make sure that things are all right in the 
Hudson River and the harbor, and I can imagine what it's like 
to have to take care of all the ports, the security duties, and 
the military duties. Frankly, the Coast Guard is required to do 
so. Thank you. And we're going to work hard to make sure you 
have the resources.
    Senator Landrieu. Thank you, Senator.
    Senator Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Madam Chair, thank you very much for 
convening this hearing.
    I want to join you and the other members of the 
subcommittee in welcoming the Commandant to review the budget 
request for the next fiscal year.
    The Coast Guard is really front and center right now on 
everybody's mind and on everybody's TV screen, with activities 
of search and rescue, protecting our coastlines, our inlet 
waterway entrances into our country--a very complex challenge 
that the Coast Guard is facing.
    But from my vantage point, I've been very pleased and 
impressed with the leadership and the hard work that's being 
devoted to the mission of the Coast Guard by everyone involved, 
from the Commandant, throughout the corps of people--men and 
women--who serve so gallantly and impressively in our Coast 
Guard today.
    I look forward to your comments about the budget request, 
and taking our questions that we may have.
    Thank you.
    Senator Landrieu. Thank you, Senator.
    Admiral, proceed, please.

            SUMMARY STATEMENT OF ADMIRAL ROBERT J. PAPP, JR.

    Admiral Papp. Good morning, Madam Chair, and Ranking Member 
Coats, and also, two longtime supporters of the Coast Guard--
Senator Lautenberg and Senator Cochran.
    Thank you for the opportunity to appear here today before 
you, and thank you for your unwavering support of the men and 
women of the United States Coast Guard.
    It's my great honor and privilege to represent and lead 
these outstanding patriots.
    America is a maritime Nation. Ninety percent of our goods 
arrive by or are shipped by sea. The safety and security of our 
maritime impacts the daily lives of every American, regardless 
of whether they live on or near the water.
    In the past year our citizens have witnessed the Coast 
Guard in action like never before. The Coast Guard has been 
conducting drug and migrant interdictions in the Caribbean, and 
instantly transitioned to respond to the devastating Haitian 
earthquake. Then, with the dust of Haiti still on its boots, it 
responded with agility to the unprecedented Deepwater Horizon 
oil rig explosion and spill. These all-hands-on-deck evolutions 
demonstrated the value of our unique, versatile, and adaptable 
maritime multi-mission and military capabilities.
    While we surged to meet these challenges, we continued to 
perform our many other persistent missions, just as thousands 
of coastguardsmen are doing today as we speak. In the flood-
ravaged Ohio and Mississippi River valleys, the Coast Guard 
personnel are assisting State and local officials to protect 
our citizens. On the Great Lakes, Coast Guard icebreakers freed 
the flow of $2 billion worth of job-sustaining commerce, 
facilitating, among other things, the start of the 41st 
international shipping season into the port of Indiana Burns 
Harbor, allowing stevedores, longshoremen, truckers, and small 
businessmen to get back to work.
    Deep in the eastern Pacific Ocean, the cutter Midgett--one 
of our 40-year-old High Endurance Cutters (WHECs) based in 
Seattle--interdicted a drug submarine loaded with 6.6 tons of 
cocaine worth $138 million. In the Arabian Gulf, several 
hundred of our coastguardsmen serve, including six patrol boats 
and a port security unit, and they're protecting the oil 
platforms that provide 85 percent of Iraq's revenue.
    Coastguardsmen are also deployed off the coast of Africa as 
part of the joint anti-piracy task force. And in Alaska, Coast 
Guard helicopter crews deployed from Kodiak, Alaska to Cordova 
for the spring and summer fishing season have rescued four 
people in two separate plane crashes just this week. And as I 
speak this morning, the cutter Campbell is off the coast of 
Honduras with a fishing vessel on the Caribbean, and they just 
located 31 bales of cocaine aboard the boat.
    These coastguardsmen, as their predecessors have done for 
more than 220 years, are working tirelessly to safeguard our 
Nation's maritime interests on our rivers, our ports, along our 
coasts, and on the high seas.
    Yet today, we find our Coast Guard at a critical inflection 
point in its history. I'm well aware of our Nation's current 
economic and budget challenges. However, I also know that 
decisions made today will do one of two things: They'll either 
sustain a Coast Guard capable of meeting its missions and 
responding to future manmade or natural disasters. And as you 
mentioned, Madam Chair, we can't predict where and when they 
will happen, so it takes our versatile and adaptable forces, in 
sufficient quantities, to be prepared for those unpredictable 
events.
    The other result could be a Coast Guard that is less 
capable and diminished in force.
    Your steadfast support, as most recently demonstrated to 
the fiscal year 2011 appropriation, enables us to continue to 
perform our challenging maritime missions at the level the 
Nation demands.
    Senator Coats, you said I must have breathed a sigh of 
relief. Quite frankly, I wanted to do a high five when I got 
this budget, because it addresses our most pressing 
requirements--the major cutter recapitalization, and sustaining 
current operations. By fully funding national security cutter 
No. 5, you enabled us to deliver the ship up to 1 year earlier, 
potentially saving taxpayers millions of dollars.
    It was ironic that this morning when I did my daily 
readings, there was a quote in there that says, ``When we pay 
later, the price is greater.'' And certainly, when we buy it 
earlier, we get it at a better price, and we will have savings 
for our taxpayers.
    Our acquisitions momentum must continue. Gaps in funding 
our recapitalization are costly and jeopardize our ability to 
protect the Nation's high seas sovereignty.
    The 2012 budget request responds to our Nation's budget 
challenges. I had to make some tough tradeoffs, and I directed 
management efficiencies, reductions in administrative costs, 
and professional services, totaling about $140 million. I will 
reinvest these savings into sustaining our frontline operations 
as the American citizens expect, to rebuilding the Coast Guard, 
enhancing our maritime incident prevention and response, and 
supporting our Coast Guard families.
    I'm requesting more than $1.4 billion to continue our 
recapitalization effort, including funding for National 
Security Cutters (NSCs), Fast Response Cutters (FRCs), response 
boats, Maritime Patrol Aircraft (MPA), and sustainment of our 
aging ships and aircraft.
    I recently decommissioned two antiquated WHECs and our 
oldest commissioned cutter--affectionately known as the Queen 
of the Fleet--Acushnet, which was almost 68 years old. Now, 
this allowed me the privilege of bestowing the Queen of the 
Fleet status to another Coast Guard cutter, Smilax, which is 
merely 67 years old.
    But at some point it becomes unfair to keep asking our 
crews to expend countless hours fixing old machinery. Our crews 
deserve state-of-the-art equipment and decent living conditions 
to do their jobs. And the American people deserve the 
capability of a modern Coast Guard fleet to preserve and 
protect our maritime sovereignty.
    The good news is, because of your support, our 
recapitalization is starting to pay dividends. The first of our 
eight NSCs, the cutter Bertholf, is currently conducting its 
first Alaska patrol. Bertholf's patrol marks the beginning of 
decades of service the NSC fleet will provide in the Bering Sea 
and throughout the vast maritime approaches to our shores. And 
the first of 58 FRCs, our new patrol boat fleet, was just 
launched in Lockport, Louisiana. This is a critical step toward 
replacing our tired but venerable workforce, the Iowa-class 
patrol boat fleet.
    The 2012 budget also invests $22.7 million to ensure the 
safe and efficient flow of commerce, protecting our natural 
resources, and effectively managing pollution incidents when 
they occur.
    Finally, you can't have a strong military workforce without 
healthy families. This budget also requests funding for 
military housing projects and increases access to childcare 
services for Coast Guard families.
    As the maritime component of the Department of Homeland 
Security, the 2012 budget will ensure the Coast Guard is able 
to continue to perform our vital maritime missions.

                           PREPARED STATEMENT

    Thank you for the opportunity to testify today, and I look 
forward to your questions.
    [The prepared statement follows:]
           Prepared Statement of Admiral Robert J. Papp, Jr.
    Good morning Madam Chair and distinguished members of the 
subcommittee. Thank you for the continuing support you have shown to 
the men and women of the United States Coast Guard, including the 
recent passage of the fiscal year 2011 continuing resolution, which 
provided full-year resources for the Coast Guard.
    I am here today to discuss the Coast Guard's fiscal year 2012 
budget request. Before I discuss the details of the request, I would 
like to take this opportunity to discuss the Coast Guard's value and 
role, some of our recent operations, including our recent response to 
the BP Deepwater Horizon oil spill, and the current budget environment.
    For more than 220 years, the U.S. Coast Guard has safeguarded the 
Nation's maritime interests and natural resources on our rivers and 
ports, in the littoral regions, on the high seas, and around the world. 
The Coast Guard saves those in peril and protects the Nation's maritime 
border, marine transportation system, natural resources, and the 
environment. Over the past year, Coast Guard men and women--active 
duty, reserve, civilian, and auxiliarists alike--continued to deliver 
premier service to the public. They saved more than 4,000 lives, 
protected our borders by stopping the flow of drugs and illegal 
migrants, and performed admirably in response to the largest spill in 
our Nation's history--the Deepwater Horizon oil spill.
    How does the Coast Guard operating model serve our public? The 
Coast Guard is an adaptable, responsive, military force of maritime 
professionals whose broad legal authorities, assets, geographic 
diversity, and expansive partnerships provide a persistent presence in 
the inland waters, ports, coastal regions, and far offshore areas of 
operations. This presence, coupled with more than 220 years of 
experience as the Nation's maritime first responder, provides our 
Nation with tremendous value in service to the public.
    The Coast Guard's value and role:
  --We protect those on the sea: Leading responses to maritime 
        disasters and threats, ensuring a safe and secure maritime 
        transportation system, preventing incidents, and rescuing those 
        in distress.
  --We protect America from threats delivered by sea: Enforcing laws 
        and treaties, securing our ocean resources, and ensuring the 
        integrity of our maritime domain from illegal activity.
  --We protect the sea itself: Regulating hazardous cargo 
        transportation, holding responsible parties accountable for 
        environmental damage and cleanup, and protecting living marine 
        and natural resources.
    The Coast Guard, working through the Department of Homeland 
Security, led the administration's response to the BP Deepwater Horizon 
oil spill, the first-ever Spill of National Significance, leveraging 
resources from across the country and around the world. The Coast Guard 
was the first agency on scene the night the mobile offshore drilling 
unit Deepwater Horizon exploded, searching for those in distress and 
providing Federal on-scene presence. During the response, the Coast 
Guard worked closely with our Federal partners and industry to leverage 
resources where needed while carrying out our other missions throughout 
the world. From nearly every corner of the country the Coast Guard 
surged more than 7,000 people, including members of the Coast Guard 
Reserve and Auxiliary, to support the response. Coast Guard members 
served in cutters and boats, in fixed and rotary-wing aircraft, and in 
the shore-side incident command system. The Coast Guard's adaptive 
operational model allowed for the:
  --Integration of Government and industry to contain the spill, 
        recover more than 34.7 million gallons of oil-water mix, and 
        perform controlled burns to remove more than 11 million gallons 
        of oil from open water to protect the shoreline and wildlife.
  --Deployment of 46 cutters and 22 aircraft. Surface assets included 
        medium endurance cutters (210-ft and 270-ft); sea-going and 
        coastal buoy tenders (225-ft and 175-ft); ice-breaking tugs 
        (140-ft); and patrol boats (179-ft, 110-ft and 87-ft). Air 
        assets included long- and medium-range surveillance aircraft 
        (HC-130 and HC-144A) and short- and medium-range helicopters 
        (HH-60 and HH-65).

        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

    While 2010 was another exceptional ``operational year'' by any 
standard, these operations further stressed existing aged and obsolete 
cutters, boats, aircraft, and support infrastructure that are in dire 
need of recapitalization. Furthermore, these extended surge operations 
strained workforce readiness due to increased op-tempo and deferred 
training. Even in the current fiscal environment where resources are 
scarce, we must continue to rebuild the Coast Guard, support frontline 
operations, invest in our people and families, and enhance maritime 
incident prevention and response capabilities to meet mission demands 
and ensure resiliency in the maritime domain.
                        fiscal year 2012 request
    In fiscal year 2012, the Coast Guard will focus resources to 
advance strategic priorities. Through tough decisions and resource 
trade-offs, the Coast Guard's fiscal year 2012 budget leverages savings 
generated through management efficiencies and offsets, and allocates 
funding toward higher order needs to support frontline operations. 
These offsets and reductions supported implementation of the following 
fiscal year 2012 budget priorities:
  --Rebuild the Coast Guard;
  --Sustain frontline operations;
  --Enhance maritime incident prevention and response; and
  --Support military families.
    Highlights from our request are included in Appendix I.
Rebuild the Coast Guard
    The Coast Guard's fiscal year 2012 budget requests $1.4 billion to 
continue recapitalization of cutters; boats; aircraft; Command, 
Control, Communications, Computers, Intelligence, Surveillance, and 
Reconnaissance (C4ISR) systems; and infrastructure to improve mission 
readiness by replacing aged, obsolete, and unreliable assets. The 
fiscal year 2012 budget requests funding for 40 response boats and 6 
Fast Response Cutters (FRCs), as well as a sizable investment in the 
renovation and restoration of shore facilities. This budget also 
provides resources to ensure that the Coast Guard's aviation fleet is 
mission-ready through the acquisition of two Maritime Patrol Aircraft 
(MPA), one HH-60 helicopter, and conversion and sustainment projects of 
multiple aircraft. Investment in Coast Guard recapitalization is 
essential to mission execution.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                      sustain frontline operations
    To ensure the Coast Guard is able to meet the needs of the Nation, 
the fiscal year 2012 budget balances resources between investments in 
capital assets, initiatives to sustain frontline operations, and 
measures to enhance mission execution. The fiscal year 2012 budget 
requests $67.7 million to operate new assets delivered through asset 
recapitalization programs and provides funding to support personnel and 
in-service assets. Moreover, funding is included to operate CGC Healy 
and support the operational reactivation of CGC Polar Star. The Coast 
Guard plans to decommission CGC Polar Sea in fiscal year 2011 and 
transition her crew to CGC Polar Star, enabling orderly transition to 
CGC Polar Star and facilitating her return to operations in fiscal year 
2013.
           enhance maritime incident prevention and response
    Coast Guard marine safety and environmental response personnel 
promote safe and efficient travel, facilitate the flow of commerce in 
the maritime domain, and protect our natural resources. The fiscal year 
2012 budget requests $22.2 million to advance implementation of the 
Coast Guard's marine safety performance plan and marine environmental 
response mission performance plan. During the response to the Deepwater 
Horizon oil spill, Coast Guard incident responders established and 
executed the Incident Command System to lead an effective, unified 
effort. The Coast Guard will enhance these core competencies in fiscal 
year 2012 to keep pace with an ever-growing and evolving maritime 
industry and ensure continued proactive leadership to prevent disasters 
on the Nation's waters and remain ready to respond if they occur. 
Additionally, funding requested in the fiscal year 2012 budget will 
assist in meeting Coast Guard Authorization Act of 2010 requirements 
regarding dockside examinations by adding examiners to improve fishing 
vessel safety.
                       support military families
    The administration is committed to improving the quality of life 
for military members and their families. The health and welfare of 
families is the heart of operational readiness. The fiscal year 2012 
budget includes $29.3 million to address critical housing shortfalls 
and improve access to affordable, quality childcare. These initiatives 
will ensure Coast Guard members are semper paratus for all hazards and 
all threats.
                               conclusion
    The demands on the Coast Guard remain high. As we have for more 
than 220 years, we remain ready to meet the Nation's many maritime 
needs supported by the fiscal year 2012 request. We will always fulfill 
our duties and obligations to the American people, true to ``semper 
paratus, always ready.'' I request your full support for the 
President's fiscal year 2012 request. Again, thank you for the 
opportunity to testify before you today. I am pleased to answer your 
questions.
              Appendix I--Fiscal Year 2012 Budget Request
                        rebuild the coast guard
Surface Assets--$642 Million (0 FTE)
    The budget provides $642 million for surface asset recapitalization 
and sustainment initiatives, including:
  --National Security Cutter (NSC).--Fully funds NSC-5 (anticipates 
        $615 million provided for NSC-5 in 2011). The NSC is replacing 
        the high endurance class.
  --Offshore Patrol Cutter (OPC).--Sustains initial acquisition work 
        and design of the OPC. The OPC will replace the medium 
        endurance cutter class to conduct missions on the high seas and 
        coastal approaches.
  --Fast Response Cutter (FRC).--Provides production funding for six 
        FRCs to replace the 110-foot island class patrol boat.
  --Response Boat-Medium (RB-M).--Provides production funding for 40 
        boats.
  --Medium Endurance Cutter (WMEC).--Provides for operational 
        enhancement of five WMECs at the Coast Guard yard through the 
        Mission Effectiveness Program.
Air Assets--$289.9 Million (0 FTE)
    The budget provides $289.9 million for the following air asset 
recapitalization or enhancement initiatives, including:
  --MH-60T--Replaces one Jayhawk lost in an operational crash in 2010.
  --HC-144--Funds production of two MPA and procurement of up to five 
        mission system pallets and associated spare parts to complete 
        outfitting of the fleet.
  --HH-60--Funds service life extension and component upgrades for 
        eight aircraft.
  --HH-65--Funds sustainment of key components.
  --HC-130H--Funds avionics upgrade and Center Wing Box (CWB) 
        replacements.
Asset Recapitalization--Other--$166.1 Million (0 FTE)
    The budget provides $166.1 million for the following equipment and 
services:
  --Command, Control, Communications, Computers, Intelligence, 
        Surveillance, and Reconnaissance (C4ISR).--Deploys standardized 
        C4ISR capability to newly fielded NSCs and MPAs, and develops 
        C4ISR capability for the OPC. Interoperable and integrated 
        C4ISR is essential to the efficient and effective operation of 
        these assets.
  --CG-Logistics Information Management System (CG-LIMS).--Continues 
        development and prototype deployment to Coast Guard operational 
        assets and support facilities.
  --Rescue 21.--Completes deployment at Sectors Lake Michigan; San 
        Juan, Puerto Rico; Honolulu, Hawaii; Guam--and continues 
        replacement of legacy VHF systems in the Western Rivers.
  --Interagency Operations Center (IOC).--Deploys WatchKeeper 
        Information Sharing capability to three IOC locations. 
        Commences deployment of the sensor management capability; 
        resulting in improved capability to see, understand, and share 
        tactical information critical to security and interagency 
        coordination in vulnerable ports and coastal areas.
Shore Units and Aids to Navigation (ATON)--$193.7 Million (0 FTE)
    The budget provides $193.7 million to recapitalize shore 
infrastructure for safe, functional, and modern shore facilities that 
effectively support Coast Guard assets and personnel:
  --Cape May, New Jersey.--Replaces a condemned pier critical to 
        execution of patrol boat missions.
  --Corpus Christi, Texas.--Implements Sector/Air Station Corpus 
        Christi consolidation in order to properly hangar, maintain and 
        operate MPA, and enhance mission effectiveness.
  --Chase Hall Barracks, New London, Connecticut.--Continues 
        renovations at the Coast Guard Academy by modernizing cadet 
        barracks.
  --Commences construction of Nos. 3-6 FRC homeports, C4ISR training 
        facility, and continues modifications to Air Station Miami to 
        accommodate new MPA.
  --Station Memensha Boathouse, Chilmark, Massachusetts.--Replaces the 
        boathouse destroyed by a fire in July 2010 essential to 
        supporting coastal law enforcement, security, and safety 
        operations.
  --TRACEN Petaluma, California Wastewater Treatment Plant.--
        Recapitalizes and expands the capability of the Wastewater 
        Treatment Plant to ensure compliance with environmental 
        regulations.
  --Station Fairport, Ohio.--Recapitalizes multi-mission boat station, 
        originally constructed in 1918, to facilitate current-day 
        operations.
  --ATON Infrastructure.--Improves short-range aids and infrastructure 
        to promote the safety of maritime transportation.
Personnel and Management--$110.2 Million (794 FTE)
    The budget provides $110.2 million to provide pay and benefits for 
the Coast Guard's acquisition workforce. The budget includes additional 
resources to support the governmentwide Acquisition Workforce 
Initiative to bolster the professional development and capacity of the 
acquisition workforce.
                      sustain frontline operations
Pay and Allowances--$66.1 Million (0 FTE)
    The budget provides $66.1 million to maintain parity of military 
pay, allowances, and healthcare with the Department of Defense (DOD). 
As a branch of the Armed Forces of the United States, the Coast Guard 
is subject to the provisions of the National Defense Authorization Act 
(NDAA), which includes pay and personnel benefits for the military 
workforce.
Annualization of Fiscal Year 2011--$53.9 Million (194 FTE)
    The budget provides $53.9 million to continue new initiatives begun 
in the prior year, including increased counternarcotics enforcement 
through enhanced Law Enforcement Detachment (LEDET) capacity and 
follow-on funding for new assets (e.g., NSC, FRC, MPA, etc.).
Surface and Air Asset Follow-on--$50.8 Million (220 FTE)
    The budget provides a total of $50.8 million to fund operations and 
maintenance of cutters, boats, aircraft, and associated subsystems 
delivered through major cutter, aircraft, and associated C4ISR 
acquisition efforts. Funding is requested for the following assets:
  --RB-M.--Funding for maintenance, repair, and operational costs.
  --FRC.--Operating and maintenance funding for FRC Nos. 6-8 and 
        funding for crew Nos. 9-10. These assets will be homeported in 
        Miami and Key West, Florida. Funding is also requested for 
        shore-side maintenance personnel needed to support FRCs.
  --NSC.--Signals intelligence capability follow-on and crew rotational 
        concept implementation for three NSCs located in Alameda, 
        California.
  --HC-144A MPA.--Operating and maintenance funding for aircraft No. 
        14; support and maintenance of mission system pallets 1-12.
  --C4ISR Follow-on.--Funding to maintain more than 200 C4ISR systems 
        deployed and delivered by the Coast Guard C4ISR program.
  --Helicopter Systems.--Funding to operate and maintain communications 
        and sensor systems for HH-60 and HH-65 helicopters.
  --Asset Training System Engineering Personnel.--Funding to support 
        NSC and FRC training requirements at training center Yorktown.
Polar Icebreaking Program--$39 Million (180 FTE)
    The budget requests $39 million in polar icebreaking budget 
authority. Funding will support the operation and maintenance of CGC 
Healy and prepare for the operational reactivation of CGC Polar Star. 
The Coast Guard plans to decommission CGC Polar Sea in fiscal year 2011 
and transition her crew to CGC Polar Star, enabling efficient 
transition to CGC Polar Star and facilitating her return to operations 
in fiscal year 2013.
Critical Depot Level Maintenance--$28.7 Million (0 FTE)
    The budget provides $28.7 million for critical depot level 
maintenance and asset sustainment for vessels, aircraft, and shore 
infrastructure. Funding will increase support levels for the 140-, 175-
, and 225-foot classes of cutters, restore aircraft spare parts, and 
provide sustainment for aging shore infrastructure.
Distress Alerting Satellite System (DASS)--$6.3 Million (1 FTE)
    The budget provides $6.3 million to begin replacement of the Search 
and Rescue Satellite Aided Tracking (SARSAT) system with DASS. This 
multi-agency partnership also includes the National Aeronautics and 
Space Administration (NASA), the National Oceanic and Atmospheric 
Administration (NOAA), and the U.S. Air Force (USAF). Recapitalization 
of the SARSAT system beginning in fiscal year 2012 is critical to 
ensure no loss of coverage in distress notification and life saving 
response during the planned deactivation of the legacy SARSAT system.
Coast Guard Network Security--$8.6 Million (0 FTE)
    The budget provides funding for the Coast Guard to transition from 
its commercially provided Internet Access Points (IAPs) to DOD IAPs via 
the Defense Information Systems Agency (DISA) to ensure security of 
vital networks and meet cybersecurity requirements.
           enhance maritime incident prevention and response
Marine Safety Enhancement--$10.7 Million (53 FTE)
    The budget provides $10.7 million and 105 personnel to implement 
the next segment of the marine safety performance plan by investing in 
marine safety inspectors, investigators, and fishing vessel safety 
examiners at Coast Guard sectors. This initiative furthers the Coast 
Guard's efforts to achieve an appropriate mix of military and civilian 
personnel with the necessary skill sets and experience to perform 
marine safety inspections and investigations.
Marine Environmental Response Enhancement--$11.5 Million (44 FTE)
    The budget provides $11.5 million and 87 personnel to enhance 
Marine Environmental Response (MER) capacity. This initiative supports 
the marine environmental protection mission by providing funding for an 
MER Incident Management and Assist Team (IMAT) and increasing technical 
expertise and strengthening MER career paths at Coast Guard sectors and 
strike teams. The request is the initial investment in the Coast 
Guard's initiative to improve mission performance in accordance with 
the MER mission performance plan.
                       support military families
Child Development Services--$9.3 Million (6 FTE)
    The budget provides $9.3 million to increase access to childcare 
services for Coast Guard families with dependents under the age of 12, 
better aligning the Coast Guard with the DOD childcare standards. 
Additionally, this request funds 12 new positions critical to ensuring 
continued accreditation of the Coast Guard's nine child development 
centers by the National Association for the Education of Young 
Children.
Military Housing--$20.0 Million (0 FTE)
    The budget provides $20 million to build family housing units at 
Sector Columbia River and recapitalize the Air Station Cape Cod 
unaccompanied personnel housing, the highest priority housing projects, 
critical to the well-being of military personnel and their families 
assigned to these geographic regions.
              decommissionings, efficiencies, and savings
High Endurance Cutter Decommissioning---$6.7 Million (-92 FTE)
    As part of its long-term recapitalization plan, the Coast Guard is 
decommissioning High Endurance Cutters (WHECs) as NSCs are delivered 
and made operational. The average age of the WHEC fleet is 43 years and 
these assets are failing at an increased rate resulting in lost 
operational days and increased maintenance costs. The Coast Guard will 
decommission one WHEC in fiscal year 2012.
PC-179 Patrol Coastal Decommissioning---$16.4 Million (-108 FTE)
    The three remaining 179-foot Patrol Coastal (PC) vessels will be 
decommissioned per a January 2007 Memorandum of Agreement (MOA) with 
the U.S. Navy. These vessels will be returned to the U.S. Navy in 
fiscal year 2012.
Standard Workstation Help Desk consolidation---$6.9 Million (0 FTE)
    Consolidates computer workstation support into two regional 
centers, eliminating 56 contractors.
Program Support Reduction---$13.6 Million (0 FTE)
    Reduction in programmatic support across the Coast Guard including 
support reductions for: small boat replacement, reservist, and contract 
support for audit remediation, innovation program funding, recruiting, 
and training opportunities.
                   administrative savings initiatives
    In fiscal year 2012 the Coast Guard will seek efficiencies and make 
targeted reductions in order to sustain frontline operational capacity 
and invest in critical recapitalization initiatives.
Management Efficiencies---$61.1 Million (0 FTE)
    Consistent with the Secretary of Homeland Security's efficiency 
review and building upon efforts in previous fiscal years, efficiencies 
will be generated by leveraging centralized purchasing and software 
licensing agreements, reductions in printing and publications, 
reductions in shipping and the transportation of things, reductions in 
advisory and assistance contracts, minimizing purchases of supplies and 
materials, office equipment consolidation, implementing automation and 
energy conservation/savings measures, and limiting Government usage of 
commercial facilities.
Professional Services Reduction---$15.2 Million (0 FTE)
    A reduction in professional services contracts for enterprisewide 
mission support and operational support activities.
Nonoperational Travel Reduction---$10.0 Million (0 FTE)
    A 25-percent reduction in Coast Guard-wide nonoperational travel, 
including travel for training, professional development, conferences, 
and international engagement.

                        COAST GUARD CAPABILITIES

    Senator Landrieu. Thank you, Admiral, very much, and I 
appreciate it.
    It's also, I think, appropriate to note Coast Guard facts 
and figures that are available on its Web site, some of the 
extraordinary work that you just touched on in your opening 
remarks about what the Coast Guard accomplishes in an average 
day. Just to say a few, the Coast Guard saves 13 lives, 
responds to 65 search and rescue cases, provides a presence in 
all major ports, and screens 679 commercial vessels and 170,000 
crew passengers. It tracked 1,200 icebergs that had drifted in 
the transatlantic shipping lanes last year. I could go on and 
on. And other testimony the Commandant has put into the record.
    I recently gave a speech on these capabilities, and it was 
an impressive part of what was prepared for me. It really is 
quite amazing, Admiral, the breadth of services the Coast Guard 
provides to our country on a daily basis and looking back over 
last year. We commend you.
    Let me start with a few questions.
    You have publicly expressed, despite your very positive 
statement this morning, some concerns about the Coast Guard's 
ability to carry out its 11 statutory missions. Recently, in 
February you said, ``We need to reduce the number and range of 
capabilities, unless we're properly resourced.''
    I know that you're pleased with several aspects of the 
budget. Can you elaborate on the capabilities to which you were 
referring in that statement? You've ordered a stem-to-stern 
review of Coast Guard capabilities. When will this review be 
completed?
    And if provided additional resources above the requested 
level, where would you invest your next dollar?
    So, it's three questions in one: Elaborate on the 
capability shortfalls, if you would. You've ordered a stem-to-
stern review. When will that review be completed, and when will 
those recommendations be reported to this subcommittee? And if 
additional resources became available, where would you invest 
your next dollar?
    Admiral Papp. Thank you, ma'am. Those are three great 
questions, the first of which is this review of capabilities 
and whether we need to cut back on some of those capabilities.
    I think we generally acknowledge across the board that 
prior to 9/11 the Coast Guard was under-resourced to do all the 
missions it had then. And since 9/11 we've picked up additional 
responsibilities through the Maritime Transportation Safety Act 
and the Safe Port Act. And we're grateful to the Congress for 
the increase of people, first of all. We gained about 6,000 
people total, which has brought us back up to where the service 
was in approximately 1990. But we've also picked up these 
additional duties.
    Also culturally, this service, bless it, has this attitude 
of ``can do'', and it's both a blessing and a curse. And as we 
have looked across the security responsibilities and the 
threats facing our country, oftentimes because of this can-do 
attitude, we start doing things that no one really asked us to 
do. Examples of that would be, in some cases, rotary-wing air 
intercept in which we're now training our helicopter pilots to 
intercept low, slow threats that might approach a national 
security event. We are resourced to do that in the Washington, 
DC area, but we're not resourced to do it elsewhere. Yet, we're 
doing it.
    Vertical insertion of coastguardsmen onto ships is among 
other tactical operations that we've looked at, perceived a 
need, and started doing on our own, without the proper 
resources to do it. And, unfortunately, we've experienced some 
accidents over the last couple of years as we've trained for 
these activities.
    This has given me cause for concern and to take a pause, 
and to order this stem-to-stern review, which will look at all 
the capabilities out there, decide which ones are absolutely 
the highest priority, then make sure that we're properly 
resourced to carry out those activities, and properly trained 
to be the best possible to do those things.
    Inevitably, we will find some gaps that exist. And if it's 
a job that the Coast Guard should be doing, it's my 
responsibility to identify that to the administration and to 
the Congress, and to seek the proper resources to do it. If 
it's something that can be filled by another Government agency 
working through partnerships, then I think it's reasonable to 
go out to other Government agencies and ask them to fill that 
void in cooperation with the Coast Guard.
    That's the two first questions I think I've answered. And 
then last is, where would I invest my next dollar? Clearly, in 
recapitalization. We cannot continue to ask these young 
patriots to go out to sea in 40-year-old ships, living in 
conditions that were World War II vintage and stacked three-
high in berthing areas where there's condensation, darkness, 
and extremes of heat and cold.
    Plus, we need to give them the proper tools to work 
effectively out there. New sensors, new radars, and survivable 
ships that will take them out in these very dangerous 
conditions, like the Bering Sea, the Gulf of Alaska, the vast 
reaches of the Pacific. We need to be about the business of 
getting those ships built as quickly as possible.
    Senator Landrieu. And Admiral, I understand that the 
average age of a Navy ship is 14 years, but the average age of 
a Coast Guard ship is 40. Is that correct?
    Admiral Papp. Yes, ma'am. Generally the Navy plans on a 20-
year service life, generally. In fact, our WHECs, the Hamilton 
class, were used as a model for the Spruance class for the 
United States Navy, which was built years later. And all the 
Spruance class have been decommissioned. We're still running 
our original 12 WHECs, with the exception of the two--Hamilton 
and Chase--that we just decommissioned.

                               OIL SPILLS

    Senator Landrieu. Let me ask you one other question. We 
have many, so this will be the first round. Coast Guard policy 
requires an incident-specific preparedness review to assess 
lessons learned from major oil spills. The 2010 review was 
recently completed in March. However, it is reported that many 
lessons learned from prior spills, such as the 2008 Cosco Busan 
spill, and the Cape Mohican spill 11 years earlier, had not 
been addressed or implemented before the Deepwater Horizon 
spill. So now we have those two previous spills, which were 
much smaller; now Deepwater Horizon.
    Where are you in your review of what it's going to take? 
Because it is a priority for, I think, the majority of the 
Members of the Senate--maybe not everyone, but the majority--to 
get deepwater drilling back up and operational in the Gulf of 
Mexico as soon as possible, recognizing that there are some 
additional safety requirements. Where are you in that task? And 
can you explain briefly the role of the Coast Guard in making 
sure that spills are prevented and then responded to 
adequately?
    Admiral Papp. Yes, ma'am. I'm very proud of the Incident 
Specific Performance Review (ISPR). As you've mentioned, we did 
it for Cosco Busan, and we've done it now for the Deepwater 
Horizon spill. It's an introspective review that I order for 
our service to take a look at how we did the job, and to reveal 
all the challenges, problems, and shortfalls that we might 
have.
    I just received that report, and we're in the process of 
evaluating that. We also need to make comparisons to the 
President's Commission report and other reports that are being 
prepared, including our marine casualty investigation, which 
has just been wrapped up.
    We will look across all those reports and come up with a 
comprehensive plan on what we need to do. But we're not sitting 
back, waiting on that. We're already moving ahead. In fact, the 
$22.7 million that we put in the fiscal year 2012 budget builds 
on a plan that we already started after Cosco Busan, which is 
to enhance our marine safety program with additional 
inspectors, marine environmental responders, and other people. 
It's a measured look, making sure that we grow slowly to make 
sure that we're doing the right thing. And the 2012 budget 
continues that process and, in addition, puts in there an 
incident management assist team of about 33 people, which we 
will forward deploy when a spill happens.
    One of the things that came across very clearly in the 
Deepwater Horizon spill is the lack of capacity that we have 
for a sustained operation like that.
    We're also not sitting back in terms of our efforts. We've 
directed all our Captains of the Port to review all their spill 
plans, particularly for those facilities that are offshore, and 
do a complete review of those. We're working with our area 
committees to look at worst-case scenarios and how we bring 
industry, Federal, State, and local together to combat those 
things.
    And all these things are in progress as we continue to 
evaluate and----
    Senator Landrieu. And finally, and specifically, when will 
you have that report to us? Do you think it will be 30 or 60 
days in time for us to consider it in this budget cycle?
    Admiral Papp. I think, certainly, the report has been 
published. It's out there. We made sure that the report itself 
went out. And it has a number of recommendations there. 
Clearly, I can't do every recommendation that's in the report, 
but we're going to assign some priorities to those. But the 
report is available, and we'll make sure you get a copy.
    Senator Landrieu. As soon as you assign your priorities, 
let us know.
    Senator Coats.

                              BUDGET CUTS

    Senator Coats. Thank you.
    Admiral, thanks for your testimony.
    You mentioned tough tradeoffs, and garnering $140 million 
in savings, which you had to and that you tried to reinvest in 
frontline operations. Give me some examples of those tough 
tradeoffs, particularly that generated that $140 million. What 
did you have to take away?
    Admiral Papp. Sir, we really need to go back to the 2011 
budget. Once again, I have to thank this subcommittee for 
restoring money in the 2011 budget. We were facing some rather 
drastic cuts in there, including maritime safety and security 
teams and cutters. That's a quick way to get savings, but it 
unfortunately cuts back on your frontline operations.
    As we went into the 2012 budget cycle--my first budget in 
preparation to go forward--my guiding principal was, ``We will 
sustain our frontline operations.'' I don't want to lose any 
Coast Guard people or any Coast Guard resources that deliver 
services to the American people. So, we would look at 
administrative overhead, where we could find redundancies and 
some fat to carve away. We didn't find a lot of fat. We're 
scraping a little bit of the muscle. But most of it is in 
administrative services, operational support reductions, 
travel, conferences, and other things that are enhancements 
that we would like to be doing--because I think it helps us to 
keep a healthy workforce--but the alternative is to cut back 
operations or cut back aircraft and ships. And I just don't 
want to do that.

                          ILLEGAL IMMIGRATION

    Senator Coats. We've had a lot of interest here, obviously, 
in strengthening the Border Patrol regarding illegal 
immigration. There have been some significant successes at a 
considerable cost.
    There is some thought that, as we strengthen our border 
security on illegal immigration, there may be more attempts to 
use the oceans and the seas as entering points. Is this 
something that you've looked at, and that you anticipate more 
responsibilities coming your way?
    Admiral Papp. Yes, sir. It's like squeezing the balloon. If 
you make the border, the land border, more secure, there is the 
possibility of going around it by going out to sea. But we've 
got that fairly well covered by a persistent presence, both on 
the gulf and Pacific sides of the Mexican-American border. We 
have patrol boats out there, and we have larger cutters further 
out to sea.
    Frankly, most of our migrant vectors are down in terms of 
numbers of people. We've seen a slight rise in the last few 
months in Haitians. But whether it's Cubans, Dominicans, 
Haitians, or migrants from across the Pacific, all those 
numbers are down. I believe everything points back to us having 
a persistent presence out there, maintaining those cutters and 
aircraft out there. And people know they're there--and a policy 
of returning migrants to their home country when we pick them 
up. The Coast Guard is very good at doing this, but we're 
finding ourselves increasingly challenged because of the 
difficulty in keeping these old ships running out there and 
keeping them out on station.
    Senator Coats. Describe the process for me, if you would. 
You're in the gulf, you come across a makeshift boat. There are 
45 illegal immigrants trying to reach land. You intercept that.
    What happens from that point forward in terms of those 
individuals? They're brought on the boat? They're brought on 
shore? Where are they detained? How are they? What's the 
process that you have to go through?
    Admiral Papp. Yes, sir. That is the value of these multi-
mission cutters we have that have flight decks for landing 
helicopters, but we also can accommodate large groups of 
migrants.
    It's not unusual, first, to find a group of 45, whether 
it's Cubans or Haitians. What we do is we bring them aboard; we 
treat them humanely; we feed them; we make sure they have 
facilities to protect them; and we have agreements in place 
with both Cuba and Haiti to repatriate them to their countries.
    We also interview these migrants to make sure there are not 
any articulable concerns about political repression or 
punishment that they might receive when they go back. Sometimes 
there are people that may have some political concerns in terms 
of going back. We interview these people, and if we find that 
there's an articulable threat or belief, then we will work with 
Customs and Border Patrol, or Immigration and Customs 
Enforcement, and bring them back, and they'll get further 
interviews.
    But for the most part, we repatriate them back to their 
countries.
    Senator Coats. I'm new to the subcommittee, so I don't know 
the answer to this, but when you repatriate those immigrants, 
illegal immigrants, you take them back yourself? Or do they go 
through some process system on land first?
    Admiral Papp. No, sir. If they are interdicted at sea we 
bring them on; we treat them; and then we bring them back 
directly. For Haiti, we take our ships into Cap-Haitien, which 
is a delivery point when we turn them over to Haitian officials 
overseen by United Nations people who are there and working 
with the Red Cross. And we have an agreement with Cuba. We 
generally have to transfer them to a smaller Coast Guard cutter 
to go into the Port of Cabanas, which is on the north coast of 
Cuba, to return them there.
    Just this morning, though, we had four Cubans who were able 
to voice what they perceived as a threat. What we did was, we 
took them around to Guantanamo Bay and delivered them there. 
And we have a migrant holding facility that does further 
interviews on shore to decide whether they go back to Cuba or 
they are brought to the United States.
    Senator Coats. I have more questions. But I think we'll do 
a second round, so----
    Senator Landrieu. Yes, we will. Thank you. Senator----
    Senator Coats. Thank you.
    Senator Landrieu [continuing]. Lautenberg.
    Senator Lautenberg. Thank you, Madam Chair.
    Admiral, you're now a seasoned Commandant, and I can tell 
you that you have won respect for the kind of leadership that 
you have shown with the Coast Guard since the time that you 
have become the Commandant, and we thank you----
    Admiral Papp. Thank you, sir.

                           TERRORIST ATTACKS

    Senator Lautenberg [continuing]. For that.
    According to the FBI, New Jersey is home for the most at-
risk terrorist attack in the United States. The area has 
targets ranging from a port, to airports, and chlorine gas 
plants. An attack in this area could endanger 12 million who 
live within a fairly short radius.
    With the administration's decreased budget requests, will 
any efforts in the Port of New York and New Jersey area be 
affected in terms of its supervision by the Coast Guard?
    Admiral Papp. No, Senator. As I said earlier, my emphasis 
on the 2012 budget is sustaining at the current level our 
operations in the field, delivering those services that the 
American citizens expect of our Coast Guard.
    New York, I believe, is well covered. As you know, we have 
Sector New York, which is one of our most robust sectors in the 
Coast Guard, located out on Staten Island; Station New York, 
where over the last 10 years we've basically doubled the number 
of boats and the number of people at the station; and the 
Maritime Safety and Security Team New York, which is there to 
provide response to terrorist events or provide additional 
security when there are security events in process.
    The other thing that's very important, though, is the 
active partnerships that we have. Through our Area Maritime 
Security Committee, we bring together all the State and local 
port partners, plus industry. And I would say probably one of 
the biggest allies is Commissioner Ray Kelly of the city of New 
York. They have pretty robust services themselves. But they're 
all complementary. We try not to be redundant. And I think New 
York is well covered.

              CAPE MAY TRAINING CENTER PIER RECONSTRUCTION

    Senator Lautenberg. The pier, port, the Cape May Coast 
Guard Training Center is in pretty bad shape. It presents a 
safety hazard. The pier supports patrol boats that are 
responsible for performing the critical safety and security 
missions in the mid-Atlantic region. Your budget request 
includes $11 million for the reconstruction of that pier.
    What kind of an impediment might follow on, to a lack of 
funding for that mission?
    Admiral Papp. I've been up there, and I've walked that 
pier, sir, and we cannot take heavy equipment out there. We 
have two major cutters that call that home port. And 
ultimately, you need to take cranes out there to do work on the 
ships when they're in port. As it stands right now, you can't 
move heavy equipment out there, so you actually have to move 
the ships in order to get any work done. And it affects daily 
work like delivering supplies and things if you can't take a 
truck down the pier.
    So, getting that replaced and giving us the versatility to 
be able to do pier-side work, keeping our cutters sustained 
that are in home port there, and not having to put extra 
burdens on our people to have to move the ship if work is to be 
done after they've already come in off long patrols are of 
great benefit to us.

                             PIRATE ATTACKS

    Senator Lautenberg. Admiral, you know the Coast Guard 
represents the United States before the International Maritime 
Organization in our efforts to prevent and respond to acts of 
piracy. Pirate attacks have been rising steadily in recent 
months, leading to some call for the increased use of arms on 
merchant ships.
    What's the Coast Guard thinking about that? It sounds like 
our ships ought to be able to defend themselves.
    Admiral Papp. What we do know, sir, is that I think the 
pirates are zero for 12, 13, or 14 whenever they've tried to 
attack and take a ship that has a security team onboard. So, we 
have evidence to validate the fact that if you have a security 
team onboard, you're most likely going to survive.
    How those security teams are provided is what the real 
question is, and some countries still prohibit the use of 
security teams onboard ships that fly their flag. There are 
some shipping companies that are actually changing their flag 
to other countries now so that they can bring security teams 
aboard. And there seems to be a fairly robust activity out 
there in terms of companies that are willing to provide those 
services, and the shipping companies seem to be able to afford 
them.
    I encourage the use of security teams. But we also have 
other measures that work, as well, including safety procedures 
for the crews that are onboard; increasing speed; and trying to 
make the ship less accessible to pirates coming aboard. It's a 
full range of activities that you can do. But ultimately what 
we've found is, security teams work.
    Senator Lautenberg. And I close with this, Madam Chair.
    I would hope that you wouldn't keep using a reference to 
``as old as World War II.''
    Some of the parts that still remain are functioning quite 
well.
    Admiral Papp. Yes, sir.
    Senator Landrieu. Thank you, Senator Lautenberg.
    Senator Cochran.

                     NATIONAL SECURITY CUTTER (NSC)

    Senator Cochran. Welcome again, Commandant to our hearing. 
We appreciate the fact that in our State of Mississippi we're 
building Coast Guard vessels, and we're very proud of the fact 
that Ingalls Shipbuilding has produced two cutters--I think 
cutter Nos. 5 and 6--and they're looking to continue the 
construction of these cutters. And my question is, what is your 
assessment of the workman contribution to this project? And 
what are your assessments of the efficiencies that are gained 
by long lead procurement of these vessels?
    Admiral Papp. Sir, that's a great question. I have been out 
to San Francisco just a few weeks ago, and I spent a full day 
riding NSC No. 2, the Waesche. It is an outstanding ship. I am 
almost willing to give up these stripes if I could get that job 
to be the captain of one of those ships. It is that 
outstanding.
    On the other hand, it's not extravagant, either. It gives 
us enhanced capabilities to better carry out our mission in a 
broader range of weather conditions, a longer range, and speed, 
and to do it more economically with fewer crew members, better 
fuel efficiency, and better environmental conditions as well.
    I was totally impressed with the smooth functioning of that 
ship and the capabilities that it brings to bear for all Coast 
Guard missions.
    Proving it is another thing. And right now, the cutter 
Bertholf--the first--is up in the Bering Sea. I read a report 
from its commanding officer, Captain John Prince, just this 
morning. They are out in 20-foot seas with up to 60 knots of 
wind, and still are able to launch and recover their 
helicopter--unheard of in the past to be able to do that from 
one of our WHECs up in the Bering Sea. They are launching boats 
in worse conditions than we were able to in the past because of 
the stern-launch capability. They are able to stay out there 
longer because the engines are more economical to run--even at 
higher speeds--than the ships that it replaces. We're doing it 
with about 40 fewer people in the crew. They're living better. 
The ship rides better because we have segregated ballast tanks 
now, instead of fuel tanks that you had to mix water in before, 
which gives you a better, more stable ride. It is proving the 
solid design and all the work that went in. And I couldn't be 
more pleased with these ships.
    No. 3 is nearing completion--the Dorothy Stratton. And 
she'll be delivered to the Coast Guard later this year. We were 
able to award the contract on No. 4 just recently, and because 
of the generosity and the work of this subcommittee, we have 
the money in the 2011 budget now to award the contract on No. 
5.
    And to your final question on long-lead time materials, 
whenever we can keep a stable and predictable flow of funding 
going, the shipyard gains confidence, we gain confidence, 
prices are lower, and we save money in the long run.
    Senator Cochran. That's a very impressive report. And it 
makes me very proud of the workers and officials of Ingalls, 
and the Coast Guard, who've devoted such a strong workman-like 
performance into the building of these ships, and getting them 
to sea where we need them operating.
    I know too that there are plans to build additional 
cutters, and long-lead-time materials are needed for those 
ships. Are those requests contained in your budget request 
before the subcommittee? Or do we need to have a conference 
with you to see what you need, what you can use, and what would 
be efficient and appropriate for this subcommittee to support?
    Admiral Papp. Sir, ultimately, in my original plans and in 
the Coast Guard's overall plans, we would have liked to have 
requested funding for NSC No. 6 in this budget that's going 
forward.
    We were confronted with a very difficult situation. I will 
admit that we had some problems early on because we had a lead 
systems integrator, and we ran into difficulties there. We took 
the contract in-house for the Coast Guard. And the first thing 
we needed to do was negotiate a fixed-price contract for cutter 
Nos. 4-8. It took us a little long to hammer out that deal, to 
get the fixed-price contract. Ultimately, I believe we came up 
with a good price on No. 4. And the shipyard, I think, is 
negotiating in very good faith on No. 5, which we'll see 
awarded here very soon.
    But because we didn't have a price for No. 4, we were 
uncertain what it would cost, what No. 5 would cost, and we 
thought that we would need some additional money, given our 
estimates for NSC No. 5. We could not fit that additional money 
for No. 5 plus the full cost of No. 6 in the 2012 budget.
    So, I made what I thought was a reasonable decision at the 
time, which was just to ask for the additional money to 
complete NSC No. 5, and we would defer the full funding.
    What I'm confronted with now is OMB Circular A-11 requires 
full funding, long-lead production, and post-production costs 
all in the same year. This is a challenge for us, because it 
eats up almost one-half our acquisition budget. So, I can't fit 
that in until the 2013 budget.
    Now, we did ask for $77 million in the 2012 budget to 
complete No. 5. You gave us the money within the 2011 budget, 
so that leaves a little bit of a bogey there in the 2012 budget 
as it goes forward. The current fixed-price contract is for NSC 
Nos. 4 and 5, and long-lead time materials for NSC No. 6.
    Senator Cochran. What is a fogey bear? What?
    Admiral Papp. I said, a little--a bogey is a target of 
either opportunity or a problem.
    Senator Cochran. Okay.
    Admiral Papp. Because it sits there, originally, as the 
President's budget goes forward, it's $77 million to complete 
the funding for NSC No. 5. So, it sits there right now with no 
assignment.
    Senator Cochran. I hope the subcommittee can work with you 
and your team, the House, and our House counterparts to try to 
figure out the most efficient and effective thing we can do in 
this cycle. But you're open to further consultation and 
discussion of this issue, I hope.
    Admiral Papp. Yes, sir.

                        UNMANNED AERIAL SYSTEMS

    Senator Cochran. Madam Chair, I have other questions, but 
particularly, I'm impressed. If I have time to ask about the 
unmanned aerial systems, the Coast Guard's been analyzing 
various unmanned aerial systems. I wonder what the status is of 
potential requests for next year's budget, or a supplemental 
request dealing with unmanned aerial assets.
    Admiral Papp. Clearly, when we devised the system of 
cutters and aircraft, unmanned aerial systems was a part of 
that--to make it, to enhance the effectiveness of the system, 
and to compensate for having, ultimately, fewer ships out 
there.
    Right now I am searching for room on where we might fit 
that in. Plus, I have to look at other partnerships as well to 
see if we might leverage them. The Navy is experimenting with a 
tactical ship-launched Unmanned Aircraft System (UAS), Fire 
Scout, which I think holds promise. But I don't have the money 
to move forward with that right now. So, we're leveraging off 
the Navy's work, and we're hopeful that they will work with us 
to experiment with one of the NSCs to see if that's the 
direction to go.
    The other is more a Predator-type UAS that would cover, 
which would do wide-area coverage. And right now, Customs and 
Border Protection is working with some Predators. We're 
experimenting with them, using some Coast Guard pilots to look 
at the effectiveness of that system and how it might be 
employed with our ships and cutters.
    Right now ultimately, we're doing better because the NSC 
gives us better sensors and coverage, and working with our 
current manned aircraft, it makes us no less capable than we 
have been in the past. But we would look forward to the future 
when we can identify the systems we need and then work them 
into our budget.
    Senator Cochran. Thank you.
    Thank you, Madam Chair.

                           DRUG INTERDICTION

    Senator Landrieu. Thank you.
    Let me just follow up on that. The question is, what is the 
most effective way to catch the bad guys? You know, is it with 
ship patrols? Is it with unmanned aircraft?
    I'm concerned about the increased reliance by these major 
drug dealers to basically build their own submarines.
    Without going into classified information, what is the 
Coast Guard's current response to some of these new, emerging, 
and more sophisticated operations?
    Admiral Papp. They're clearly presenting us with a 
challenge. But the drug trafficking organizations are still 
using a wide range of conveyances. Sometimes just slow fishing 
vessels--sometimes go-fasts. They're also, as we know, using 
semi-submersibles, and now fully submersibles. They will move 
depending--it's basically a chess game. And when we come up 
with a new tactic, they will move to another new tactic, and we 
have to react to that.
    When you ask, what's the most effective? It's really a 
combination of all those things, and then another element, 
which you didn't mention, is intelligence. We can't do nearly 
as well as we do now if it was not for active intelligence, 
working with our partners, bilateral and multilateral 
agreements that we have with South and Central American 
countries that allow us to share information, work together, 
train together, and also actually, conduct operations together 
on the water, and sometimes even allow us to go into other 
sovereign waters based upon the agreements that we've come up 
with.
    So, intelligence is probably one of the most important 
things for us, because it will tell us oftentimes not only 
where to go, but what ship to look at and oftentimes what 
compartment in that ship to look at.
    I'm not divulging--I'm talking in generalities; that's how 
sophisticated our intelligence is. And it's a combination of 
that with our operational assets that are out there.
    Senator Landrieu. I'm so glad you mentioned that, Admiral. 
Because I was recently down in Guatemala on a trip focused on 
another issue, but took the opportunity to get a security 
briefing by our Embassy, and this is exactly what they were 
talking about. The Guatemalan Government was very complimentary 
of the Coast Guard and your partnerships. I want this 
subcommittee to know that we just can't stop drugs at the 
border, along the Southwest Border. They're coming through 
maritime channels, ship channels, oceans, and bayous.
    And getting the right intelligence before they leave the 
ports or intercepting them well before they get into our ports 
is a smart strategy. It's a combination of the right kind of 
materials and platforms. The intelligence aspect and the 
partnership with some of these governments, such as Honduras, 
Guatemala, Nicaragua, and El Salvador are extremely important. 
And do you want to comment on that? And I have one more 
question----
    Admiral Papp. Just to----
    Senator Landrieu [continuing]. And then I'll go to Senator 
Coats.
    Admiral Papp. Yes, ma'am. Just a quick one, as well. But 
another thing that I'd like to brag a little bit about is that 
it's not just the United States Coast Guard cooperating with 
those South and Central American countries. We also facilitate 
cooperation among Federal agencies as well. One of my 
collateral duties is the chairman of the Interdiction 
Committee, where we bring together Justice, the Department of 
Defense, and a full range of the interagency to share and to 
work together, and to come up with strategies.
    At our last meeting we brought in General Fraser, who's the 
Commander of SouthCom. He has a deep and abiding interest in 
what goes on in Central America.
    But at the end of the day, you're absolutely right. We need 
to stop these drugs in the transit zone where we can pick up 
that 6.6 million tons of cocaine at one time, before it gets 
ashore in Central America, is broken down into thousands of 
packages to come across our border at various locations, and of 
course, also fueling the violence that we're seeing down there 
in Mexico.

                            AVIATION SAFETY

    Senator Landrieu. Thank you.
    And one more question. Since 2008--and you slightly touched 
on this, but I want to go a little deeper--14 Coast Guard 
aviators have died in recent accidents while conducting routine 
missions. Keeping the men and women of the Coast Guard safe, 
I'm sure, is your highest priority. I understand the Coast 
Guard has reviewed the cause of these incidents, the adequacy 
of aviation training, and operational maintenance. But what 
recommendations are you making in this budget? What have you 
recommended that we can support in our efforts to keep these 
men and women safe on these routine training missions?
    Admiral Papp. Yes, ma'am. Thank you for that. I was asked a 
couple of days ago, ``What keeps you awake at night?'' And I 
said, ``Actually, I sleep pretty good. We've got good Coast 
Guard people out there, and good leaders that are getting the 
job done.'' But one of the sleepless nights that I can count is 
the loss of our helicopter 6017 very shortly after I became 
Commandant.
    Fortunately, we had already started our aviation safety 
study. And we are well along in terms of--and I want to thank 
Senator Lautenberg for calling me at the time and pointing us 
toward an investigation that the Army did on some helicopter 
losses.
    What we found out is that there was not a connection. The 
Army was mostly mechanical. Ours is really head work. And what 
I mean by that is, we've seen a lot of rapid cultural change 
within our aviation community over the last 10 years. We've 
picked up additional new responsibilities. The rotary wing air 
intercept that I talked about--tactical vertical insertion and 
other things, other than search and rescue, that we didn't do 
10 years ago.
    You can't necessarily point it on just that either. We've 
also gone through a rapid progression of upgrades and 
instrument and equipment changes within our helicopters. So, 
there's been change there. And I think also perhaps a little 
bit of complacency has slipped into our aviation culture across 
the Coast Guard; perhaps a diversion of focus away from safety 
concerns, leaders getting out on the flight deck and spending 
time with their young pilots, having them focused on their 
qualifications, and crew management within the cockpit. It's a 
whole collection of things that came together and resulted in 
what were very, very unfortunate accidents under very routine 
circumstances. And it was not mechanical. It was human failure.
    We're working very hard right now, taking our most senior 
aviators and going around to every air station. And we've got a 
number of other things in the works to improve upon an aviation 
culture in the Coast Guard that has produced the best maritime 
pilots in the world, making them even better.
    There's no cost in the budget for this. It's something we 
have to take on as leaders, and we're about the business of 
doing that.
    Senator Landrieu. Thank you, Admiral.
    Senator Coats.

                        PERSONAL LOCATOR DEVICES

    Senator Coats. Thank you.
    Admiral, I'm aware that the Navy has placed on every ship 
afloat, and every sailor on that ship, a locating device that 
if there's a man overboard, woman overboard, they have an 
instant alert and GPS location. I mean, we all think of going 
out on a Sunday in the Chesapeake Bay, and someone falls 
overboard, and the boat just simply turns around and picks them 
up. But, obviously that's not the case in the open ocean.
    Do you have a similar system in place?
    Admiral Papp. What we have----
    Senator Coats. With your guardsmen.
    Admiral Papp. I'm not sure if we have something similar 
because I'm not familiar with the system that the Navy has 
employed, and I haven't read anything about that.
    There are a number of small personal systems that are out 
there on the market right now. In fact, we just did a rescue in 
Alaska where an airplane crashed, and somebody was able to 
light off their personal device, which gave us an alert and----
    Senator Coats. A vector.
    Admiral Papp [continuing]. Vectored us into it.
    We put a number of what we call personal protective 
equipment on our people whenever they're involved in dangerous 
operations. There are a full range of things from signaling 
devices to strobe lights and other things. What I'll have to do 
is look at a comparison of what the Navy is issuing right now 
and see if there are any enhancements that we can do for our 
people as well.
    Senator Coats. Yeah. I don't even know the name of it, the 
company, or what the market is. It's just that I've run into 
someone that told me about it, and he indicated that there's 
been a dramatic reduction in sailors lost at sea as a result of 
this thing.
    Admiral Papp. I'll look it up, sir, and we'll get back to 
you.
    [The information follows:]

    The Navy's utilizes the Man Overboard Indicator (MOBI). The MOBI is 
a water- or manually activated personal alarm system designed to 
improve the safety of sailors involved in operational situations with 
the potential for falling overboard. MOBI uses a transmitter to aid in 
the detection, location, and recovery of sailors who fall overboard. 
MOBI is a Naval Sea Systems Command (NAVSEA)-managed program.
    While the Coast Guard does not utilize the Navy's MOBI, we do 
utilize a similar device, the Personal Locator Beacon (PLB) or 
Personnel Electronic Position Indicating Radio Beacon (P-EPIRB). These 
devices are worn on the boat crew survival vest by all coxswains, 
crewmembers, boarding officers, and boarding team members in accordance 
with the Rescue and Survival Systems Manual (COMDTINST M10740.10F).

                           LIVING CONDITIONS

    Senator Coats. Talk a little bit to me about your living 
conditions. What percent of your forces are married?
    Admiral Papp. We are one of the highest, and I don't have 
the exact figure, but my recollection is, it's up close to 50 
percent, which we actually have the highest rate of people that 
are married, compared to the other four services.
    Senator Coats. And married with children, I assume.
    Admiral Papp. Most of them. Yes, sir.
    Senator Coats. I mentioned then your concerns about 
housing, adequate housing, and childcare. Where are you in that 
process? And where do you rank? We all know the Air Force has 
the best facilities, including golf courses. We all know that 
the Navy does pretty well, and the Army has improved 
dramatically. Marines are happy with a slab of cement and a 
tarp. But where does the Coast Guard fit in the list of 
services here in terms of what you would call the kind of 
housing that you're proud to have your people live in? Are you 
really deficient? Are you bottom of the ladder or----
    Admiral Papp. We're clearly at the bottom of the ladder. 
But what I have to qualify that with is that we have fewer 
people who live on big bases. We are locally dispersed, and 
it's very hard to come up with Coast Guard housing because 
we're at so many small stations around the country. So, we look 
at a combination of Government leases.
    We, of course, have housing allowances for all of our 
people. One of the things that we have picked up--I declared 
this during my state of the Coast Guard speech. This is the 
year of the Coast Guard family. And my wife Linda and I have 
traveled around. She's met with literally thousands of Coast 
Guard people. We've chosen to focus on those things we think we 
can make a difference on, which is housing, childcare, 
ombudsman services, and spouses helping spouses.
    Housing is a challenge for us because where we do have 
bases--for instance, Cape May, New Jersey, or Kodiak, Alaska--
we have done okay in terms of trying to maintain them. But 
they're very costly.
    The other services were facing the same challenges, and 
they got authorities and the money to enter into public-private 
ventures. That is----
    Senator Coats. Do you have that authority?
    Admiral Papp. We do not have that authority. Also, we've 
had it in the past, but it requires us to escrow a large amount 
of money, which we never are able to get in our budget.
    So what we've done, sir, is we've actually leveraged off 
the other services. Out in Hawaii what we did was we ceded some 
of our land that we had for our old housing to the Army. They 
brought in their public-private authorities and built houses, 
which now our Coast Guard takes part in.
    At the other end of the spectrum, I actually live in a 
privatized house over at Bolling Air Force Base right now. 
We're selling the Commandant's house, which we owned for 40 
years, in Chevy Chase because it costs a lot of money, and we 
do have authorities to take the proceeds from those sales and 
turn them back into housing for our servicemembers.
    So, we're selling the Commandant's house, and I've moved 
into a place that I pay rent on to a private company on Bolling 
Air Force Base, and it is up to Air Force standards, sir.
    That's what we need to do for the rest of our workforce. 
I'd love to be able to have those public-private venture 
authorities, but it costs a lot, so what we're doing is, we've 
got a mixture of Coast Guard supported housing; we're looking 
where we can leverage off the other services, to take advantage 
of their authorities; and we're coming up with a comprehensive 
plan on the way ahead.
    Senator Coats. I think you should keep us advised. I mean, 
morale and quality of service are directly related to the 
quality of life that is provided for family and children. Your 
people are out doing dangerous work and away from home. And 
they want, they need, to have some sense of comfort that their 
loved ones are taken care of.
    Admiral Papp. Yes, sir. Absolutely.
    Senator Coats. Thank you.
    Senator Landrieu. Thank you, Senator.
    I'd like to follow up on that as well, and I'll recognize 
Senator Lautenberg in a moment.
    I helped to lead the effort to privatize the Army housing, 
which has been really successful with the family housing. And 
at one point, Senators, it was estimated that it would take 
nearly, at the rate we were going, 200 years or more to provide 
housing for some of our men and women in uniform, according to 
what the budgets look like. So, we had to change the paradigm. 
And this private housing has been phenomenally successful. I'm 
a member of the Subcommittee on Military Construction, Veterans 
Affairs, and Related Agencies.
    So perhaps, Senator Coats, you and I could really work 
together on this subcommittee to see new strategies that we 
might be able to employ--the partnerships you suggested and 
other avenues to provide really stepped-up housing 
opportunities for our men and women in the Coast Guard. And I'd 
like to commit to you to try to do that with your help and 
assistance.
    Senator Lautenberg.

                  RESPONSE TO ENVIRONMENTAL DISASTERS

    Senator Lautenberg. Thanks, Madam Chair.
    I can tell you that for the people in the Coast Guard who 
are at Cape May, New Jersey, that it's a wonderful place to be. 
If we could enlarge that facility, then we could take care of 
more. And then this summer--that's right on the beach--we could 
put up some tents and accommodate people, and then the rest of 
the year they'd have the--it's wonderful.
    They deserve better. I can tell you that. And when I look 
at the deteriorated situation with the quarters there now, that 
makes me unhappy. I'm so proud that you're so able to do the 
recruiting that you have to do, as mentioned earlier.
    I want to go on to something a little touchy, Admiral Papp. 
The recent report on the Coast Guard's response to the 
Deepwater Horizon oil spill found that the Coast Guard's 
ability to respond to environmental disasters had ``atrophied 
over the past decade.'' How has the Coast Guard planned? How do 
you respond to that? And what can you do to improve your plans 
for better security missions and the need to improve the 
environmental response?
    Admiral Papp. Sir, I agree that it had atrophied over the 
last, probably, decade to 20 years. And part of that is because 
we've been very good at prevention. You have prevention and 
response. You hope that you don't have to respond because 
you've prevented the spills from happening in the first place. 
And we've been so good at the prevention side that I think, I 
don't know whether we just became complacent--part of it is 
complacency. And once complacency slips in, perhaps you're not 
looking as far forward in terms of new technology and other 
things that might be able to help you in the future for a 
response.
    I think that the Oil Pollution Act of 1990 placed most of 
the responsibility for maintaining equipment with private 
industry, and I don't think private industry has looked that 
far forward either, or considered the implications of a worst-
case scenario spill like we experienced in Deepwater Horizon.
    So, I think it's incumbent upon us to take a look at what's 
the proper balance between Federal and industry, in terms of 
maintaining equipment and preparation. Ultimately, the answer 
is, working together.
    The Coast Guard has already started----
    Senator Lautenberg. Forgive the interruption. Does that 
include developing better specs for drilling and accident 
prevention? Is that something the Coast Guard would be taking 
on? I don't know how you do the preventive side and make it the 
rule.
    Admiral Papp. Organic to the Coast Guard, we do not have 
the expertise in terms of drilling.
    I think we all learned an awful lot through that. That 
falls under the Department of the Interior right now. And what 
we're doing is we're working very close with the Department of 
Interior to make sure that we collaborate as we go forward.
    The Coast Guard has expertise in firefighting, stability, 
construction of the mobile platforms, and other things. But 
we've got zero organic technical expertise in the drilling 
operations, particularly in the deep sea.
    I'm unwilling to volunteer to take on additional 
responsibilities to bring that organic technical expertise to 
the Coast Guard. I think it exists within the Department of the 
Interior. And what we need to do is make sure we're doing 
exactly what we do now, which is we work very close with our 
Federal partners----
    Senator Lautenberg. So you can encourage them to 
participate more actively in the prevention side.
    Admiral Papp. Yes, sir.

                             MARINE ECOLOGY

    Senator Lautenberg. I want to ask you this. We've seen 
incredible changes in our marine ecology as a result of 
changing temperatures. Does the Coast Guard have the ability to 
either recognize changes in marine functioning--the fish, the 
undersea plants, coral, and those kinds of things that all make 
part of the ecology. Is there any awareness of the Coast Guard 
about what is taking place as a result of what is obviously the 
climate change that we're seeing?
    Admiral Papp. We're certainly interested in it. And no, we 
don't have organic expertise or staffs that are applied to 
that. We're more reactive in nature in terms of carrying out 
our current authorities when, for instance, in the Arctic we 
have much more open water now, and the potential for commerce 
and shipping to increase in those areas. We rely upon the 
National Oceanic and Atmospheric Administration and other 
Government agencies that do have that focus of the scientific 
study of our waters and the changes that are happening. The 
results of those changes are something that we have to deal 
with.
    Senator Lautenberg. Now, it's just that you have so many 
people on the sea, and there are changes that are occurring. 
And I don't know whether you see these changes in makeup, 
quantity, or things that just fall your way. I know that when 
we put an embargo on striped bass years ago and so forth, the 
Coast Guard had some part in maintaining the rules for catches. 
And it worked wonders. I mean, we replaced the quantity, and it 
improved the quality as well.
    So, I ask that because I'm like all of us that are 
concerned about what is taking place in the environments and 
the climate change. And if there's any way that there is 
information flow without giving you another task because you're 
so close to the reality out in the sea.
    Thanks very much, Madam Chair.
    Senator Landrieu. Senator Cochran.
    Senator Cochran. I have no further----

                      OFFSHORE PATROL CUTTER (OPC)

    Senator Landrieu. Okay. Thank you.
    I think we're about complete. If you all would just be 
patient, one more question from me, then we're going to end the 
meeting.
    You recently released a draft request for information for 
the Offshore Patrol Cutter (OPC). I understand this is arguably 
the most important acquisition for these particular boats--the 
backbone of the Coast Guard.
    Your future-years capital investment budget includes 
funding for both the OPC and the NSC. It reaches almost $2.3 
billion. You've never requested more than $1.4 billion in any 
fiscal year. Can you just briefly comment? And we'll use that 
question to close the meeting.
    Admiral Papp. Yes, ma'am. It's an interesting turn of 
events because I've watched Commandants come up here for years 
and always being accused of not asking for what they need or 
not asking for enough.
    We're asking for what we need. And we need to be about the 
business of designing and selecting, and then building those 
OPCs--25 of them in our project baseline. They will provide the 
capabilities--the NSC is the high end, with the most 
capabilities. And then of course, the FRC, our patrol boat, 
which will be inshore, doesn't have a flight deck and is less 
capable.
    The OPC will provide the connection between those two and 
in the outer zone of our defenses for security as you come to 
the country. It's got to be capable, though, of operating in 
the north Atlantic, the Bering Sea, and the Gulf of Alaska, 
which most of our Medium Endurance Cutters (WMECs) do not right 
now. They are just not stout or capable enough to survive those 
types of elements.
    So, we need something that's going to probably perform in 
about Sea State 5, be able to launch helicopters, and recover 
boats in more challenging conditions. The OPC is that ship. 
I've looked at the basic specs that we've put out recently. I 
think it will be a very good ship to provide that, to fill that 
gap. We also have to be mindful that ultimately, with the 8 
NSCs and the 25 OPCs, that's 33 ships replacing the 41 that we 
have right now.
    So, we're pressing ahead. My job is to identify what we 
need in those years. And the administration signed off on our 
capital investment plan so I'm very hopeful we'll follow 
through with that.
    Senator Landrieu. Thank you, Admiral. And again, thank you 
for your testimony today, for your forthrightness, for asking 
for what you really need. We look forward to working with you. 
And thank you for what your men and women do, amazing work 
every day. Thank you.
    Admiral Papp. Thank you, ma'am.

                     ADDITIONAL COMMITTEE QUESTIONS

    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Mary L. Landrieu
         2010 oil spill--incident-specific preparedness review
    Question. Coast Guard policy requires an incident-specific 
preparedness review to assess lessons learned from major spill events. 
The review of the 2010 oil spill in the gulf was recently completed in 
March. A primary conclusion of the independent review was that ``the 
Coast Guard's Marine Environmental Response (MER) preparedness and 
response programs have atrophied over the past decade''. It found that 
the Coast Guard's area contingency plans were inadequate, there was a 
lack of engagement with State and local governments on national 
contingency plan responsibilities, environmentally sensitive areas were 
given uneven and inadequate attention in area contingency plans, and 
more research is necessary for alternative response technologies. The 
report also noted that many lessons learned from prior spills, such as 
the 2008 Cosco Busan spill and the Cape Mohican spill 11 years earlier, 
have not been addressed or implemented effectively by the Coast Guard.
    What is the Coast Guard doing to implement the recommendations of 
the review and ensure the lessons learned are institutionalized?
    How will you oversee and measure the effectiveness of these 
changes?
    The budget request includes $11.5 million to enhance Marine 
Environmental Response (MER) capacity. Your written testimony notes 
this is an ``initial investment''. Do you have a long-term financial 
plan for this effort? Please provide the plan to the subcommittee when 
it is completed.
    Answer. While the report does not necessarily reflect the views of 
the Coast Guard, the Incident Specific Preparedness Review's (ISPR) 
process of critical analysis, review, and outside perspective will be a 
useful tool in helping the Coast Guard continuously improve coastal oil 
spill response for the American people. The ISPR is one of several 
reports that have been completed following the BP Deepwater Horizon Oil 
Spill. The Coast Guard is also conducting a comprehensive review of the 
President's National Commission on the BP Deepwater Horizon oil spill 
and offshore drilling's findings, the National Incident Commander's 
(NIC) Report along with the other Deepwater Horizon reports that 
provide a body of lessons learned, perspectives, and opinions. The 
Coast Guard is carefully reviewing these reports to identify areas of 
positive and effective preparedness improvements to develop effective 
and appropriate national implementation strategies. The Coast Guard has 
already taken several actions to address areas where planning and 
preparedness will be improved, including directing Captains of the Port 
to review oil spill response plans for offshore facilities, requiring 
area committees to include worst case discharge scenarios for offshore 
facilities in their respective area contingency plans, increasing State 
and local outreach and participation in area committee meetings and 
activities, and participating in a Coast Guard, Federal Emergency 
Management Agency, and Environmental Protection Agency workgroup to 
develop recommendations to harmonize the national contingency plan and 
national response framework governance constructs.
    The Coast Guard is carefully evaluating the body of perspectives 
and opinions provided in the various reports. As changes are 
implemented, the Coast Guard will use a formal lessons learned program 
that is designed to document, assess, and implement lessons learned 
from oil spill exercises and real events, including the BP Deepwater 
Horizon oil spill. Coast Guard leadership will leverage this program to 
monitor execution of any changes resulting from the ongoing reviews. 
Developing measures of effectiveness is an important part of evaluating 
and implementing proposed changes. However, effective response is only 
part of the equation. Due to the progress the Coast Guard has made as a 
result of prevention efforts, there has been a consistent reduction in 
the average number of chemical discharge incidents and oil spills in 
the maritime environment between fiscal year 2008 and fiscal year 2010.
    The President's fiscal year 2012 budget request includes funding to 
immediately increase the Coast Guard's marine environmental response 
and marine safety capabilities. Included in the fiscal year 2012 
request are 87 marine environmental response personnel, including 33 
personnel dedicated to an Incident Management Assist Team (IMAT), 
additional marine environmental responders at sectors, and additional 
strike team personnel. As part of these efforts, the Coast Guard will 
fully develop an investment plan to ensure these new resources are 
effectively installed. The nature of future investment will depend on 
how the Coast Guard decides to address the recommendations put forth in 
Deepwater Horizon after action reports and to implement the lessons 
learned from other past response efforts. The Coast Guard will work 
diligently within the organization and with government partners and 
industry to implement meaningful improvements for future oil spill 
planning, preparedness, organization, and response.
                        fleet mix analysis (fma)
    Question. The Coast Guard recently completed the first phase of a 
study called the Fleet Mix Analysis (FMA) that updated the mix of 
offshore assets necessary to meet mission performance requirements. The 
study took an unconstrained resource approach, resulting in an increase 
in total assets with a cost approaching $65 billion, nearly $40 billion 
higher than the current estimate. A second FMA is underway that 
considers the effects of fiscal constraints.
    According to recent testimony by the Government Accountability 
Office, the second analysis being conducted will not assess options 
lower than the current mix of assets the Coast Guard determined as 
necessary in 2004. With Federal agencies facing a much leaner fiscal 
future, don't you think it would be wise to fully understand the trade-
offs above and below the current mix?
    I understand that the Department of Homeland Security is conducting 
its own study called the Cutter Fleet Mix Analysis. This appears to be 
a redundant effort to the Coast Guard's FMA. Why are multiple studies 
being conducted, when will the results be shared with the Congress, and 
how will the Coast Guard use the results of the studies?
    Answer. FMA phase 2 was developed to validate key assumptions in 
FMA 1 and to take a very specific look at the performance of the 
Program of Record (POR) under constrained investment levels. The 
analysis of trade-offs is the focus of the Department of Homeland 
Security Cutter Study.
    While the FMA analyzes the current program, the Department of 
Homeland Security Cutter Study includes an analysis of trade-offs under 
various assumptions for the mission requirements of the fleet. The 
Department of Homeland Security Cutter Study benefits from the FMA 
validation of modeling methodologies and will be used to inform near-
term investment decisions. The results of these studies do not stand 
alone, but taken together they inform the Department's acquisition 
analysis and will be reflected in fiscal year 2013 and future years' 
budget requests.
              high endurance cutter (whec) decommissioning
    Question. Your budget proposes to decommission a third High 
Endurance Cutter (WHEC) in fiscal year 2012, but the third National 
Security Cutter (NSC) won't be ready for operations until fiscal year 
2013. That equates to a net loss of 3,300 operational hours or 185 
steaming days.
    How will this impact the Coast Guard's ability to conduct critical 
missions, such as drug interdiction and migrant interdiction?
    Answer. The fleet of WHECs is achieving approximately 140 of their 
programmed 185 patrol days per year, which is unsustainable for the 
long-term as the costs to keep these vessels operational continually 
increase. The Coast Guard is currently expending more than three times 
what is budgeted to maintain them with diminishing returns on 
investment. The Coast Guard will replace these assets with NSCs as soon 
as possible.
    NSCs offer improved capability over the legacy WHECs. Currently, 
there are two NSCs in service--CGC Bertholf and CGC Waesche. In April 
2011, CGC Bertholf commenced its first patrol in the Bering Sea. CGC 
Waesche is currently completing ready for operations testing and 
evaluation, and will be ready to join the fleet very soon. CGC Stratton 
is nearly complete and we anticipate it will be ready for operations in 
spring 2013. The introduction of NSCs will improve operational 
availability of the major cutter fleet as aged and obsolete WHECs are 
decommissioned.
    The Coast Guard will leverage these and the remaining WHECs and 
Medium Endurance Cutters (WMECs) to meet all statutory mission 
requirements, including drug and migrant interdiction.
                            budget planning
    Question. The Coast Guard's Blueprint for Continuous Improvement 
includes an action item that the Coast Guard develop a list of 
priorities for major acquisitions.
    What steps has the Coast Guard taken to develop this priority list, 
and how will the Coast Guard use it?
    Will the Coast Guard's acquisition, resources, and capabilities 
directorates all be involved equally?
    What additional major investments are on the horizon that will need 
to be factored into Coast Guard acquisition budgets over the next 5 
years?
    Answer. The Coast Guard's Acquisition Blueprint requires completion 
of a project priority list to assist with management of acquisition 
resources and activities within the Acquisition Directorate. The 
assigned completion date for the acquisition project priority list is 
fourth quarter of fiscal year 2011.
    A separate but linked resource governance process, overseen by the 
Coast Guard's most senior leadership, is used to prioritize resources 
needs including requests for AC&I funding, across the entire service. 
This is an ongoing effort, and is part of the Coast Guard's planning, 
programming, budgeting, and execution cycle. The Coast Guard 
recapitalization priorities are included in the fiscal years 2012-2016 
Capital Investment Plan.
    Yes, the linked resource governance process, overseen by the Coast 
Guard's most senior leadership with equal representation across all 
Coast Guard directorates, is used to prioritize resources needs 
including requests for AC&I funding, across the entire service.
    Based on the best available information used to develop the Coast 
Guard's fiscal years 2012-2016 Capital Investment Plan, there are no 
new assets expected to join the major acquisition queue beyond those 
that are already specified in the Coast Guard's Program of Record.
                       fast response cutter (frc)
    Question. If fiscal year 2012 funding is provided for four FRCs, 
instead of six as requested, would that increase the costs of each FRC? 
What would be the increased cost per ship?
    Answer. Yes. Overall, the average cost increase per hull is 
approximately $5 million, including production costs, economic price 
adjustments associated with spare parts, antecedent liabilities, and 
other scalable program costs (e.g., project management, testing, 
certification, etc.).
                            vessel security
    Question. Please describe the Coast Guard activities (assets used, 
location, and associated costs) in support of the mission to protect 
tankers and other vessels in foreign waters.
    Answer. The Coast Guard conducts domestic operations to protect 
tankers or other vessels in or near U.S. ports. However, it does not 
have the authority to conduct such operations in foreign waters. The 
primary responsibility for the protection of tankers and other vessels 
in foreign waters is the port state receiving these vessels.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. Admiral Papp, the fiscal year 2012 budget justification 
documents indicate that the United States will remove one of our heavy 
polar icebreakers from service and return to contracting with other 
nations for icebreaking operations. As the melting of the polar ice 
caps in the summer months reveals new natural resources, navigational 
routes and introduces new national security considerations, the United 
States will be subcontracting critical icebreaking duties with nations 
who may ultimately be in direct competition with us for these 
resources. Furthermore, we continue to operate without a comprehensive 
assessment or a workable plan to address this lack of a strategic 
asset.
    The fiscal year 2012 budget request indicates that ``[t]o help 
define the capability that is needed to meet long-term Federal needs in 
the changing Arctic environment, Coast Guard will participate in the 
Department of Homeland Security-led interagency working group, funded 
in fiscal year 2012 to develop final requirements for acquisition of 
the 21st century icebreaking capability.'' As far back as 2008, the 
Coast Guard has indicated that it is assessing the United States' 
national interests in the arctic regions and the corresponding 
capabilities needed in the region. Most notable among these efforts is 
the High Latitude Study, which the Coast Guard has not yet released.
    What is the status of the High Latitude Study, as well as the polar 
business case analysis, and is there a timeframe when these reports 
will be completed and available?
    What are the key differences between the composition of and the 
anticipated outcomes of this working group and the various studies, 
including the High Latitude Study, that the Coast Guard has already 
been tasked to produce?
    Answer. The Coast Guard's contractor has completed the High 
Latitude Study and it will be transmitted to the Congress to meet the 
reporting requirement set forth in Public Law 111-281. In accordance 
with Public Law 111-281, Coast Guard is conducting a polar business 
case analysis.
    The High Latitude Study is a Coast Guard-sponsored assessment of 
Arctic and Antarctic mission requirements, including the polar 
icebreaking needs.
    The Department of Homeland Security-led acquisition analysis will 
consider the icebreaking requirements across the Government and analyze 
agency-specific solutions, such as those identified by the High 
Latitude Study, to determine whether a coordinated acquisition of new 
icebreaking capability would provide greater benefit to the Nation. The 
analysis will consider a broader set of alternatives, including the 
mode of icebreaker operation and functional ownership across the 
Federal Government. The results of this effort will produce the 
acquisition strategy and funding plan for procuring 21st century 
icebreaking capability.
    Question. The Coast Guard anticipates relying on foreign nations to 
perform ice-breaking duties, some of which may be in competition with 
the United States for energy resources, fishing rights, navigational 
lanes, and national security. This is not the first time that the 
United States has been forced to rely on foreign nations.
    In the past, what was the annual cost to the United States to 
contract polar icebreaking services with a foreign entity?
    What is the estimated annual cost for this activity under the 
President's budget proposal?
    In previous testimony, Secretary Napolitano referenced two 
countries with which we could contract our icebreaking operations. 
Would you please advise the subcommittee of the two countries by name 
and give us your assessment of any conflicting interests they may have 
with the United States in the polar regions, specifically referencing 
energy resources, navigation, fishing rights, and national security?
    Answer. The Coast Guard has not historically contracted polar 
icebreaking services with a foreign entity. The National Science 
Foundation (NSF) has done so the past 4 years to provide the McMurdo 
break-out in Antarctica in support of scientific activities and for 
other scientific studies, and for scientific studies in the Arctic 
Ocean.
    There are no funds included in the Coast Guard's fiscal year 2012 
budget proposal to lease foreign icebreakers. Specific questions on 
icebreaker leasing should be directed to NSF.
    The two countries referenced by Secretary Napolitano are Russia and 
Sweden. No U.S. agency has contracted polar icebreaking services to 
perform duties, to the extent they exist, related to energy resources, 
fishing rights, navigational lanes, and national security. The Coast 
Guard is not in a position to comment on specific competing interests 
that foreign countries may have with the United States in the Arctic. 
This question would be better addressed by the State Department.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. Please describe the ways in which the Coast Guard is 
involved in response to the ongoing Mississippi River flooding.
    Answer. The Coast Guard continues to conduct statutory missions on 
the Western Rivers and respond to ongoing flooding events. To date, the 
Coast Guard has activated 47 reservists to support 2011 flood response 
operations. During the most recent Mississippi River flooding, the 
Coast Guard has deployed assets (e.g., personnel, boats, aircraft) in 
support of Search and Rescue (SAR), Marine Environmental Response 
(MER), and Aids to Navigation (ATON) missions. The Coast Guard is 
coordinating with Federal, State, local, and tribal organizations to 
render assistance to persons in distress, as well as to protect 
property.
    The Coast Guard Marine Transportation Recovery Unit (MTSRU) 
monitored impacts and kept the maritime industry appraised and briefed 
on developments through the dissemination of a daily summary report. 
The Coast Guard was very proactive in coordinating all potential 
actions with industry through daily River Industry Executive Task 
Force, New Orleans Port Coordination Team, and Lower Mississippi River 
Commission conference calls.
    Additionally, Coast Guard Captains of the Port (COTP) are 
continually reviewing and implementing, when necessary, safety zones. 
The COTP are also issuing marine safety information bulletins to ensure 
the safe navigation of marine traffic. The Coast Guard continues to 
monitor the water levels and is implementing river closures and re-
openings, as appropriate, and working closely with the U.S. Army Corps 
of Engineers as they manage their responsibilities for flood control.
    Question. Please describe the ways in which Coast Guard assets were 
used to respond to the Deepwater Horizon incident.
    Answer. The Coast Guard was involved in every phase of the response 
to the Deepwater Horizon incident, including the initial Search and 
Rescue (SAR) response. Sixty Coast Guard vessels were used to respond 
to the Deepwater Horizon incident. These vessels included 210-foot and 
270-foot WMECs, sea-going and coastal buoy tenders, ice breaking tugs, 
and patrol boats. After the explosion, Coast Guard vessels were engaged 
in SAR operations. When operations shifted from rescue to oil spill 
response, Coast Guard vessels were used in the recovery of oil, using 
onboard assets such as the Spilled Oil Recovery System (SORS) and 
Vessel of Opportunity Skimming System (VOSS).
    Twenty-two Coast Guard aircraft, including long- and medium-range 
surveillance aircraft and short- and medium-range helicopters, were 
used to respond to the Deepwater Horizon incident. Initially, as with 
the Coast Guard vessels, Coast Guard aircraft were used in SAR 
operations, evacuating injured crew members and searching for missing 
crew members. During the aircraft SAR operations, the first evidence of 
oil sheen was observed. Coast Guard aircraft were then used for 
surveillance, oil spotting, and overflights.
    More than 7,000 Coast Guard personnel, including active duty, 
reserve, auxiliary, and civilians, participated in all phases of the 
response. Today, almost 200 Coast Guard personnel continue to support 
oil spill recovery operations in the gulf. Coast Guard personnel were 
involved in SAR operations, Incident Command System (ICS) coordination 
and staffing, oversight of offshore and onshore cleanup activities, 
public affairs, coordination with Federal, State, and local officials, 
and many other aspects of the response. Specialized personnel and 
equipment were also deployed from the Coast Guard's National Strike 
Force and other deployable support forces.
    Question. Are there any particular stories of heroic activities by 
your men and women during the Deepwater Horizon response that you would 
like to share with the subcommittee?
    Answer. Yes. In particular, the Coast Guard would like to share the 
story of the first men and women on the scene of the Deepwater Horizon 
incident--helicopter pilot Lieutenant Commander (LCDR) Tom Hickey, 
Coast Guard rescue swimmer Aviation Survival Technician Third Class 
(AST3) Dustin Bernatovich and the air crews of Coast Guard Number 
(CGNR) helicopters 6605, 6508, and 6576. The following is a summary of 
their actions on the evening of April 20, 2010 following the 
catastrophic explosion on the Deepwater Horizon mobile offshore 
drilling unit, 110 miles southeast of New Orleans, Louisiana.
    After a failure of the rig's drilling systems 5,000 feet below the 
sea surface, a rush of oil and flammable gas surfaced and ignited the 
platform, ultimately crippling the structure, killing 11 and forcing 
workers onboard to abandon the rig. The aircrews aboard the CGNR 6605, 
6508, and 6576, led by LCDR Hickey, immediately assumed on-scene 
coordinator duties for numerous aircraft and vessels converging on the 
disaster site. They quickly determined that the offshore supply vessel 
Damon B. Bankston had embarked 115 rig workers in need of rescue. 
Rescue swimmer AST3 Bernatovich was deployed to the vessel, and LCDR 
Hickey then tasked seven additional arriving aircraft to conduct search 
patterns around the rig, and sequenced helicopters to the Damon B. 
Bankston to evacuate the most severely wounded victims. Despite 600-
foot flames, explosions on the rig, and intense heat felt in the cabin, 
the crews of the CGNR 6605, 6508, and 6576 made numerous low passes 
within 150 feet of the rig to search for any possible survivors as the 
rescue swimmer conducted triage of the injured mariners. While 
communicating constantly with the other aircraft, LCDR Hickey provided 
critical safety pilot duties as the Coast Guard helicopters hoisted 
five survivors and transferred them to awaiting paramedics back at Air 
Station New Orleans. The leadership and superior actions of LCDR 
Hickey, AST3 Banatovich, and the aircrews of the CGNR 6605, 6508, and 
6576 ensured the success of a major rescue operation, which saved 14 
lives and assisted 101 others.
    Question. If the Congress provided you with the flexibility of 
multi-year procurement authority and then adequate follow-on 
appropriations, could it provide for savings to the taxpayer in the 
acquisition of NCSs Nos. 6-8?
    Answer. We cannot execute the NSC project under a multi-year 
procurement construct given the current NSC contract structure.
    Question. What are the specific advantages of purchasing long-lead 
time materials (LLTM) in advance of the construction of a Coast Guard 
vessel?
    Answer. Purchasing these materials in advance allows for optimal 
sequencing of production activities by ensuring that LLTM will be on 
hand when needed.
    Question. The Congress provided funding to complete NSC No. 5 in 
fiscal year 2011, rather than in fiscal year 2012 as assumed in the 
budget request. Understanding this change, if the Congress were to 
instead provide funding for LLTM for NSC No. 6 in fiscal year 2012, 
would the Coast Guard be able to purchase these materials in fiscal 
year 2012 and take advantage of the resulting efficiencies?
    Answer. If NSC No. 6 were fully funded in fiscal year 2012, the 
Coast Guard could award NSC No. 6 LLTM in fiscal year 2012.
    Question. Could you characterize the current operations and 
maintenance costs associated with the WHECs you plan to retire as you 
acquire NSCs?
    Answer. The programmed cost to operate and maintain each WHEC is 
approximately $20 million. Of the $20 million, $1.2 million is 
programmed for depot level maintenance. In fiscal year 2010, the WHEC 
fleet expended, on average, $3.96 million per hull on depot level 
maintenance, or $2.76 million above programmed levels.
    Question. Do the Bertholf's recent operations around Alaska provide 
you with additional confidence in the NSC's ability to operate in 
arctic areas of responsibility?
    Answer. Yes. USCGC Bertholf's current Alaskan patrol has subjected 
the cutter to 20-foot seas, 60 knot winds and temperatures below 
freezing, all testing the NSC's operational capabilities in Arctic sea 
conditions. USCGC Bertholf's economical propulsion plant and enhanced 
endurance allowed for 24 days at sea without replenishment and provided 
for sustained cutter presence offshore. The large flight deck and 
stable sea keeping capabilities allowed for a broad weather envelope to 
launch and recover aircraft, and also supported more than 20 safe and 
effective law enforcement boardings in seas up to 8 feet. The Coast 
Guard is very pleased with the operational performance of the NSC in 
the Bering Sea thus far.
    Question. I understand that the Coast Guard has been analyzing 
various unmanned aerial systems to determine which existing systems 
might provide a solution for both your land-based and ship-based aerial 
missions. What added capabilities and cost avoidance could these 
unmanned systems provide that current manned aircraft platforms are not 
providing?
    Answer. Aircraft persistence, sensor payloads, and C4ISR suites 
unique to Unmanned Aircraft Systems (UASs) are expected to 
significantly increase maritime surveillance and detection capability 
for strategic and tactical commanders. Additionally, unmanned 
capabilities may permit the Coast Guard to employ airborne sensors when 
and where they are needed most, and for extended periods, regardless of 
risks that would prevent the employment of manned aircraft (e.g. areas 
where chemical, biological, radioactive, and other hazards are 
present). Finally, UASs allow more versatile manned aircraft to be 
employed elsewhere to maximize mission outcomes. By one estimate, the 
UAS has a lower life-cycle cost when compared to manned aircraft 
operations (``Cost Comparison Potential of Coast Guard Unmanned 
Aircraft Systems and Coast Guard Manned Aircraft Systems'' study, 
prepared by Wyle Laboratories, Inc., in support of the U.S. Coast Guard 
Office of Aviation Acquisition (CG-931), in August 2010). This study 
estimates a cost per flight hour savings of 15 percent for ship-based 
UAS as compared to the H-65 and 50 percent for land-based UAS, as 
compared to C-130H.
    Question. Do you believe that it is important to make these assets 
available to the Coast Guard as soon as possible?
    Answer. Yes. The UAS acquisition is a significant component of the 
Coast Guard's solution to eliminate the current MPA gap. However, while 
UAS is a priority for the Coast Guard, the highest priorities of the 
Coast Guard Air Domain are to extend current aircraft service life, 
enhance the capability of current airframes, and recapitalize aged and 
obsolete air assets.
    Question. What specific funds are requested in the fiscal year 2012 
budget that would move the Coast Guard closer to the acquisition of its 
own unmanned aerial assets?
    Answer. The Coast Guard continues to advance its plan for UAS 
acquisition through its partnerships with other Government agencies 
that are developing and implementing the UAS concept of operations. In 
2012, Coast Guard will apply multi-year funds to continue its UAS 
acquisition research projects.
    Question. What is the Coast Guard's assessment of SouthCom's 
Project Cazador, which was carried out in cooperation with Panama?
    Answer. The Coast Guard did not have any direct involvement with 
the planning and execution phases of Project Cazador; this was a 
SouthCom-led initiative that occurred in summer 2010 over a 120-day 
period. The project was conducted in cooperation with Panama and 
provided additional Detection and Monitoring (D&M) capacity along the 
littorals of Panama. The program complemented Joint Interagency Task 
Force South's D&M efforts that occurred further offshore, which the 
Coast Guard plays a substantial role in. Initiatives such as Project 
Cazador are considered of high value to the Coast Guard given the 
synergy with the aforementioned Coast Guard operations. The UAS, Heron 
I, was demonstrated during Project Cazador. Coast Guard personnel 
deployed to observe Heron I gained valuable UAS experience. It was 
observed that Heron I's slow cruise speed is both a strength and 
weakness. It was observed that Heron I is very capable of long-
endurance missions in limited areas or over a specific target. When 
attempting to classify and identify targets at the outer edge of its 
radar range, it was observed that airspeed was a limiting factor. As 
such, Heron I would likely have limited operational effectiveness when 
patrolling the extensive smuggling routes south of Panama.
    Question. How do the illicit cargo interdicted during Project 
Cazador compare to amounts seized in recent Coast Guard operations?
    Answer. During the same 4-month period (June 2010 through September 
2010), the Coast Guard sized 28 metric tons (MT) of cocaine in the 
transit zone, while Project Cazador seized a total of 10 MT of cocaine.
    Question. If Coast Guard assets had not been tied up responding so 
bravely to the Deepwater Horizon incident, do you believe Project 
Cazador would have yielded additional interdiction of illicit cargo?
    Answer. Project Cazador could have possibly yielded additional 
interdictions had the Coast Guard not diverted assets to support 
Deepwater Horizon operations. During much of Deepwater Horizon, 
Airborne Use of Force (AUF) helicopters were diverted from counter drug 
deployments to support the response efforts. In one specific case, a 
Project Cazador detection and monitoring asset located and tracked a 
``go-fast'' in the Western Caribbean near Costa Rica. A Coast Guard 
cutter conducting a Joint Interagency Task Force South patrol was 
diverted to intercept the ``go-fast'', which was suspected of 
trafficking cocaine. The Coast Guard cutter did not have an AUF capable 
helicopter deployed onboard, and the ``go-fast'' evaded the cutter and 
escaped into Costa Rican territorial waters.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
              u.s. coast guard maritime coverage in alaska
    Question. In Alaska, we are very concerned with the President's 
decision to decommission another WHEC in the fiscal year 2012 budget. 
Given the vast maritime environment that the Coast Guard is responsible 
for protecting in Alaska, I am concerned that the decommissioning of 
these cutters will have significantly negative impacts on the safety 
and security of the Alaskan commercial fishing industry. The Coast 
Guard is tasked with conducting operations in Alaska that encompasses 
more than 3.8 million square miles, which is larger than the land mass 
of the continental United States, and more than 33,000 miles of 
coastline. With the Alaskan fishing industry producing more than 50 
percent of the national fishing totals each year, the cumulative loss 
of another cutter from the Coast Guard's fleet could place a 
significant portion of the Alaskan fishing fleet that routinely operate 
in the Bering Sea and Gulf of Alaska in danger as well as preventing 
the Coast Guard from effectively ensuring that the safety and 
commercial fisheries regulations are adequately enforced.
    Previously you testified that the Coast Guard was committed to a 
plan to recapitalize the current WHEC fleet with new NSCs, an effort 
that was designed to maintain current cutter coverage levels while 
quickly bringing the new class of cutters online. However, the fiscal 
year 2012 proposed budget does not have any funding for LLTM for the 
sixth NSC. During Secretary Napolitano's fiscal year 2012 budget 
hearing in March, she emphasized her commitment to building out eight 
NSCs. NSC No. 5 is now fully funded. However, I note that there is no 
funding for NSC No. 6 in the fiscal year 2012 request. The Coast Guard 
previously funded LLTM for the NSC in advance of production. Would the 
total cost of NSC No. 6 be reduced if LLTM are funded in fiscal year 
2012 versus fiscal year 2013? If so, by how much? Also, what plan do 
you have in place to assure that there is adequate cutter coverage in 
Alaska?
    As you are aware, there are only seven HH-60 helicopters in 
Alaska--four in Kodiak and three in Sitka. These assets, given their 
durability in harsh weather environments, are essential to the Coast 
Guard's ability to rescue those in need in Alaska. However, each year 
helicopters are repositioned in Alaska to cover the fishing fleets in 
the Bering Sea and Gulf of Alaska. That repositioning moves assets from 
other Coast Guard facilities, leaving those areas with resource gaps. 
What is the Coast Guard's plan to close this aviation resource gap? 
Does the Coast Guard have the aviation assets it requires to complete 
is missions in Alaska and the rest of the United States?
    Answer. If NSC No. 6 were fully funded in fiscal year 2012, the 
Coast Guard could award NSC No. 6 LLTM in fiscal year 2012. The 
possibility for total cost savings would depend on several factors.
    The Coast Guard has a proud history of serving the maritime 
interests in Alaska and will continue to do so, including maintaining a 
major flight deck equipped cutter presence in the Bering Sea. The NSC 
will replace the aging and obsolete WHECs and provide greater 
operational availability to the fleet of major cutters. NSCs are 
already having an operational impact. In fact, the first NSC, USCGC 
Bertholf (WMSL 750), commenced its first patrol in Alaska in April 
2011. Additionally, USCGC Waesche (WMSL 751), also home-ported on the 
west coast, will be ready for operations by November 2011 and available 
for worldwide assignment. Moreover, USCGC Stratton (WMSL 752) will be 
delivered in September 2011 and ready for operations in spring 2013. 
Patrolling Alaskan waters remains a high priority and the Coast Guard 
is committed to providing coverage to meet the most-pressing 
operational needs, including coverage for missions in the Bering Sea.
    The Coast Guard has partnered with the U.S. Navy Sundown program to 
receive, at no cost, retired H-60F model airframes, which can be 
converted to Coast Guard MH-60T helicopters. Funding was provided in 
the Disaster Relief and Summer Jobs Act of 2010 (Public Law 111-222) to 
convert one Navy H-60F airframe to a Coast Guard MH-60T helicopter as a 
replacement for one of two HH-60J Coast Guard helicopters (CGNR 6028 
and 6017) lost in operational crashes. This conversion is expected to 
be completed in November 2011. Funding has been requested in the Coast 
Guard's fiscal year 2012 budget to convert a second H-60F airframe, 
completing the restoration of HH-60 capacity. The Coast Guard continues 
to balance rotary wing needs based on operational risks, which is why 
the Coast Guard continues to rotate HH-60s to Alaska during critical 
fishing and crabbing seasons.
    Of the four rotary-wing aircraft lost due to mishaps in the past 3 
years, to date one has been funded for replacement, and the second is 
requested in the fiscal year 2012 President's budget. With these 
planned replacements, there remains a two aircraft gap in the aviation 
fleet. However, the Coast Guard moves assets to ensure coverage for 
highest priority missions.

                         CONCLUSION OF HEARINGS

    Senator Landrieu. The subcommittee stands in recess, 
subject to the call of the Chair.
    [Whereupon, at 11:17 a.m., Tuesday, May 10, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
